<html>
<title> - EMERGENCY MANAGEMENT AND PREPAREDNESS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 EMERGENCY MANAGEMENT AND PREPAREDNESS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 16, 1999

                               __________

                           Serial No. 106-117

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-491                      WASHINGTON : 2000





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                         Randy Kaplan, Counsel
                          Grant Newman, Clerk
           Trey Henderson, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 16, 1999..................................     1
Statement of:
    Bacon, James L., Program Manager for Chemical 
      Demilitarization, Department of the Army...................    67
    de Courcy, David, Region 10 Director, Federal Emergency 
      Management Agency..........................................    74
    Doherty, Dennis, Umatilla County Commissioner................    28
    Lee, Myra T., Director, Oregon Emergency Management..........    83
    McCann, Thomas, mayor, city of Stanfield.....................    15
    Minthorn, Armand, board of trustees, Confederated Tribes 
      Umatilla...................................................    36
    Obermiller, Fred, Department of Agriculture and Resource 
      Economics, Oregon State University.........................    45
    Prociv, Theodore M., Deputy Assistant Secretary of the Army 
      for Chemical Demilitarization, Department of the Army......    60
    Tallman, Terry, Morrow County Commissioner...................    20
Letters, statements, et cetera, submitted for the record by:
    Bacon, James L., Program Manager for Chemical 
      Demilitarization, Department of the Army, prepared 
      statement of...............................................    71
    de Courcy, David, Region 10 Director, Federal Emergency 
      Management Agency, prepared statement of...................    78
    Doherty, Dennis, Umatilla County Commissioner, prepared 
      statement of...............................................    30
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     4
    Lee, Myra T., Director, Oregon Emergency Management, prepared 
      statement of...............................................    85
    McCann, Thomas, mayor, city of Stanfield, prepared statement 
      of.........................................................    18
    Minthorn, Armand, board of trustees, Confederated Tribes 
      Umatilla, prepared statement of............................    38
    Obermiller, Fred, Department of Agriculture and Resource 
      Economics, Oregon State University, prepared statement of..    47
    Prociv, Theodore M., Deputy Assistant Secretary of the Army 
      for Chemical Demilitarization, Department of the Army, 
      prepared statement of......................................    63
    Smith, Hon. Gordon H., a Senator in Congress from the State 
      of Oregon, prepared statement of...........................    13
    Tallman, Terry, Morrow County Commissioner, prepared 
      statement of...............................................    23
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon, prepared statement of.....................     8

 
                 EMERGENCY MANAGEMENT AND PREPAREDNESS

                              ----------                              


                        MONDAY, AUGUST 16, 1999

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                     Hermiston, OR.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
Hermiston Armory, 900 Southeast Columbia Drive, Hermiston, OR, 
Hon. Stephen Horn (chairman of the subcommittee) presiding.
    Present: Representatives Horn and Walden.
    Staff present: J. Russell George, staff director and chief 
counsel; Randy Kaplan, counsel; Grant Newman, clerk; Jeff 
Eager, legislative assistant to Representative Walden; and Trey 
Henderson, minority professional staff member.
    Mr. Horn. A quorum being present, this hearing of the House 
Subcommittee on Government Management, Information, and 
Technology will come to order.
    And I'd like to first welcome and thank Congressman Greg 
Walden who has been a valued member of this committee. When I 
am done with my opening statement, he will preside as chairman 
today. He's shown up at all of our sessions. He asks first rate 
questions.
    Mr. Minthorn. We can't hear.
    Mr. Horn. OK. That's what I asked when we started. Can you 
hear us in the back row? If you can't, put your hands up.
    OK. You are independent Oregonians, so I figure you are not 
bashful. So just put your hands up. Mr. Walden has been a great 
addition to this committee.
    This is an investigatory committee of the House of 
Representatives. We hold more hearings than any committee in 
the House, because we have jurisdiction over the whole 
executive branch.
    And I am going to go through my opening statement, and then 
Mr. Walden will preside the rest of the day, since he knows all 
of you and he knows how the committee works.
    And I want to thank also at this point the Oregon National 
Guard for lending us the use of this wonderful facility. I must 
say, I have been, as an Army Reserve member, I've been into a 
lot of Reserve and National Guard facilities. I've never seen 
one as beautiful as this. So whoever did it, you ought to keep 
that architect in the Federal Government, because some of our 
facilities are ugly and awful. This is not. So, thank you.
    Mr. Horn. The United States possesses more than 31,000 tons 
of obsolete chemical weapons. This stockpile of weapons is 
stored at eight sites in the Continental United States and at 
an additional site on the Johnston Atoll in the Pacific Ocean.
    I have landed there a number of times. It's about maybe 10 
of these Armories. It's a pretty short runway.
    And the stockpile consists of nerve and blister agents 
stored in rockets, bombs and bulk storage containers.
    In an effort to eliminate these weapons, the U.S. Congress 
passed a law requiring the Department of Defense to develop and 
implement a plan to destroy its chemical weapons and agents. 
This law directs the Department of Defense to destroy the U.S. 
stockpile of lethal chemical weapons while providing maximum 
protection to the environment, the public, and the personnel 
involved in disposing of the munitions.
    In 1997 the Senate ratified the chemical weapons 
convention, an International treaty banning the development, 
production, stockpiling, and use of chemical weapons, commits 
member nations to dispose of their chemical weapons stockpile 
by April 29, 2007.
    To comply with the mandates of the law and meet the 2007 
deadline, the Department of the Army established the Chemical 
Stockpile Disposal Program. This program is designed to remove 
the threat posed to nearby communities by continued storage of 
chemical weapons. The Army projects the program cost will be 
approximately $15 billion through the 2007 deadline. Thus far 
approximately $8 billion has been appropriated for the program.
    Because of the dangers associated with the chemical 
weapons, both to humans and to the environment, the program has 
been controversial and has experienced delays, cost increases, 
and management weaknesses.
    At today's hearing we will discuss the management of the 
Chemical Weapons Disposal Program at the Umatilla Chemical 
Depot, located a few short miles from where we are today. The 
Army faces a number of challenges as it begins the process of 
disposing of the more than 3,700 tons of chemical agents at the 
Umatilla Depot.
    Given the stakes involved in such an endeavor, the Army 
must ensure that the nearby communities are prepared for any 
emergency resulting from an accidental leakage of chemical 
agents. To ensure the safety of local communities, the Army 
established the Chemical Stockpile Emergency Preparedness 
Program. The Army shares the management of this program with 
the Federal Emergency Management Agency [FEMA].
    In recent years, there has been concern over the management 
and implementation of the Emergency Preparedness Program. The 
General Accounting Office, which is the audit arm both 
financially and programmatically for the Congress, it's part of 
the legislative branch, and the General Accounting Office, 
otherwise referred to as GAO, is our watch dog, and they 
reported in June 1997 that communities located near the storage 
sites lacked items critical to responding to a chemical 
emergency. The General Accounting Office attributed some of the 
programs' problems to management weaknesses, including 
disagreement between the Army and the Federal Emergency 
Management Agency over their respective roles and 
responsibilities.
    Local communities, including communities surrounding the 
Umatilla Depot, expressed concern that money allocated for 
emergency services and equipment was never received. Today we 
will ask what has been done by the Army, what has been done by 
the Federal Emergency Management Agency, and what has been done 
by the Oregon Emergency Management agency to ensure the safety 
of the local communities.
    Another challenge faced by the Army is ensuring that the 
disposal program is completed on time. Two sites, the Johnston 
Atoll in the Pacific and the chemical disposal facility in 
Tooele, UT, have begun incineration of their chemical weapons. 
However, as of March of this year, only 4,259 tons, or 13\1/2\ 
percent of the total stockpile, have been destroyed. It is 
imperative that these chemical weapons are disposed of in a 
safe, efficient and timely manner. The longer the weapons sit 
in storage, the more unstable and dangerous they become. 
Construction of the disposal facility at Umatilla site has 
begun. The Army estimates that disposal operations will begin 
in 2002, and will be complete by 2006. Today we will ask 
whether this timetable can be met.
    Another issue of concern is the disposal program's impact 
on the local economy. The construction of the incinerator is 
bringing new jobs to the area. At the same time, however, it is 
placing increasing demands on government services and the 
public infrastructure. The disposal facility is scheduled to 
close down for good once the project is complete. Today we will 
ask what can be done to assist nearby communities avoid the 
potential negative impact of this temporary government project.
    May I say, I come from a city where everything has been 
closed down by the U.S. Navy. It was once the headquarters of 
the Pacific fleet, and had the most productive economic Naval 
shipyard in the history of the United States. Didn't matter. 
Closed them all. So I know what you're going through as a 
possible situation here in terms of unemployment.
    At perhaps a cost of $15 billion, the chemical stockpile 
disposal project is one of the largest Defense Department 
programs. Successful completion of this program, in a safe and 
timely manner, is dependent on proper management. There must 
also be close cooperation and coordination between the 
interested partners, including the various Federal, State and 
local government entities, as well as the local communities.
    We have here with us today two distinguished panels of 
witnesses who will address many of the issues surrounding this 
project. Panel one includes representatives from the 
surrounding communities. Panel two consists of representatives 
from the Federal Government, Army Federal Emergency Management 
Agency, representatives of the State of Oregon.
    And so once again I want to thank Representative Walden and 
his staff for helping us organize this meeting on such short 
notice and I now yield to the gentleman from Oregon to preside 
over and chair this meeting.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.001
    
    [GRAPHIC] [TIFF OMITTED] T4491.002
    
    Mr. Walden. Well, thank you very much, Mr. Chairman. 
Chairman Horn, I greatly appreciate your willingness to respond 
to my request to hold this subcommittee hearing here in 
Hermiston to take a look at these important issues you've 
outlined and ones that are certainly shared by the community 
here. I also want to thank everyone who has turned out today 
for this hearing. I know how busy it is this time of year 
especially, but I think it shows the interest level surrounding 
this issue of storage and incineration of chemical weapons at 
the Umatilla Chemical Depot.
    Before I start, I'd like to give special thanks again to 
Chairman Horn who has come a great deal out of his way during a 
busy time to bring his unrivaled reputation and expertise in 
Federal oversight to our corner of Oregon.
    I would also like to thank General Burgin and Colonel 
Caldwell of the Oregon National Guard for providing us with 
this room and being so helpful in setting it up for this 
hearing, and certainly Rick Tunstead as well, who is over here, 
who has helped make everything possible, and my friend and 
former colleague, Chuck Norris, who is here today, who has been 
very helpful as well, and for whom this room is named. Chuck of 
course used to be the Colonel at the Depot.
    You've heard already about what is stored out at the Depot, 
and you know the issues there. One of the primary purposes of 
this hearing is to oversee how the Federal Government's working 
with the State of Oregon and local officials to prepare the 
residents of the surrounding area in case of an accidental 
chemical release.
    In the past several years residents have raised concerns 
about the Federal Government's use of funds that were 
appropriated by Congress to fund emergency preparedness around 
the Umatilla and other chemical weapons storage sites. So I 
look forward to hearing from local witnesses about the status 
of the emergency preparedness in this area. The Federal and 
State witnesses on the second panel can then inform us of their 
efforts to ensure that local communities are safe from chemical 
disaster.
    Also this morning we will focus on the issue of how the 
Umatilla project, especially the increased activities 
surrounding the construction and operation of the incinerator, 
is impacting the local economy and government services. 
Community officials have indicated in the past that roads, 
schools and other services may be overused and strained to the 
limit for a short period of time and sort of boom/bust economy 
as the incinerator workers flood the area. Because the Federal 
Government does not pay taxes on the land it owns, the 
increased use of public services will not be balanced by an 
increase in local property tax payments. Then, when the 
facility is closed in 2006, communities may be left maintaining 
extra capacity in their services, leaving the local property 
taxpayers with the bill. This issue of economic impact is one 
that requires cooperation among the local, State, and Federal 
officials to ensure that all are aware of the problems faced by 
local citizens and that a plan can be developed to address 
these problems.
    This morning we will hear from an economist who has done 
research into the issue of the economic impacts surrounding the 
Depot as well as local and Federal officials who will express 
their views on impact aid. I hope that this process will forge 
a greater understanding of the options available to communities 
as they try to cope with the substantial economic changes they 
are undergoing as a result of playing host to a chemical 
weapons disposal facility.
    A third issue that will be addressed is the fact that the 
House of Representatives has passed an appropriations bill that 
would cut some $388 million out of the Army's Chemical 
Demilitarization Program. Because I'm concerned about what 
effects this cut might have for the Umatilla facility, I sent a 
letter to members of the Appropriations Committee, asking them 
to fund the program at a level that allows for the timely 
disposal of chemical weapons that become more and more unstable 
the longer they are stored. I hope to hear from the Army about 
what the proposed cuts to the program would mean for Umatilla 
in terms of increased risk of disaster as well as employment 
and possible changes to economic impact.
    I look forward to a full airing of the information and 
views surrounding the Umatilla facility. I firmly believe that 
with Chairman Horn's help, we can do some very effective 
oversight this morning to bring all interested parties together 
to focus on the challenges that remain to ensure the chemical 
weapons disposal process is carried out safely, timely, and 
with a sensitivity to the needs of the citizens of the 
communities that surround Umatilla County.
    [The prepared statement of Hon. Greg Walden follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.003
    
    [GRAPHIC] [TIFF OMITTED] T4491.004
    
    [GRAPHIC] [TIFF OMITTED] T4491.005
    
    [GRAPHIC] [TIFF OMITTED] T4491.006
    
    Mr. Walden. At this time I would like to ask unanimous 
consent of the committee to insert in the record comments from 
Senator Gordon Smith. He has submitted written testimony for 
our concern, and without objection, I would ask that that be 
inserted in the record. So ordered.
    [The prepared statement of Hon. Gordon H. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.007
    
    [GRAPHIC] [TIFF OMITTED] T4491.008
    
    Mr. Walden. Now, then if I could have the witnesses stand, 
it is the policy of the Government Reform and Oversight 
Committee to swear in all witnesses who testify, and if you 
have staff people with you who you think you may call, they 
should stand at this time, as well, and take an oath for the 
committee. If you would raise your right hands.
    [Witnesses sworn.]
    Mr. Walden. Thank you. I would also like to suggest that we 
do have your full written statements, and so if you are willing 
to summarize your remarks in the 5 minutes or so allotted for 
each one, then we will have more time for the Q and A. And we 
have asked questions of each panel, and we will ask all members 
of the panel to offer their completed remarks.
    We will also be circulating note cards into the audience 
from the committee's staff for any audience members who want to 
submit a question to be asked, as well. I must point out that 
in most congressional hearings that is not something that's 
offered up. So I commend the chairman for his willingness to 
open it up to the public to submit questions from the audience 
that we will then pose to the committee members. And just so 
everyone knows, the timeline, I believe we are supposed to be 
wrapped up by 11:30 so that you can get back in time to catch a 
flight back to your district.
    So, with that, I will get the list here. Where is the 
witness list? And we will start with the mayor of the city of 
Stanfield, the Honorable Tom McCann. Good morning and welcome.

      STATEMENT OF THOMAS McCANN, MAYOR, CITY OF STANFIELD

    Mr. McCann. Good morning. Chairman Horn, Mr. Walden, 
members of the subcommittee.
    My name is Thomas J. McCann. And I am honored to represent 
the mayors of the city of Boardman, Irrigon, Echo, Hermiston, 
Stanfield, and Umatilla. We appreciate your coming here to 
facilitate these proceedings and to listen to our concerns.
    The cities of western Umatilla County and north Morrow 
County are primarily concerned with the safety our residents in 
the event of an incident at the Umatilla Chemical Depot that 
would cause the release of toxic agents. While FEMA and the 
State of Oregon has received large funding amounts and are 
probably ready to handle an emergency from a management and 
oversight standpoint, it is the local communities, in 
conjunction with our respective counties, that will be the 
first line of defense for area citizens. Even the local 
Chemical Stockpile Emergency Preparedness Program has most of 
the resources in place, from a command and control perspective, 
to function at their level in the event a release at UCD. What 
is lacking in all of this is direct funding to the cities of 
Stanfield, Echo, Hermiston, Umatilla, Irrigon, and Boardman. 
There are a number of areas of ongoing concern that I would 
like to discuss with you today.
    First and foremost is the lack of capacity in these small 
rural communities to deal with the enormity of the issues we 
are faced with due to the disposal project at UCD. Without any 
help from the Federal Government in the form of impact aid, our 
small towns have or are preparing to build the infrastructure 
needed to service the increase in population that is a direct 
result of the construction and operation of the disposal 
facility. These commitments from the local communities include 
new water systems, waste water systems, road improvements, and 
new school facilities. The total fiscal impact on these six 
communities for capital and operating cost is estimated to be 
at $30.7 million. These costs are directly attributable to UCD. 
The cost to local taxpayers for these improvements will go on 
long after the Depot has closed down and those residents 
associated with this project have left, typically for a total 
of 20 to 30 years. This means that the remaining residents will 
bear this burden for the Federal Government for many years 
after this facility has ceased operations.
    In a setting where local governments and citizens are 
already taxed beyond what is fair, we still have a large number 
of safety concerns that need to be addressed before 
incineration operations can begin. It is important to all of us 
that this project not be delayed any longer than necessary, as 
there are 105,000 rockets alone stored at UCD that get more 
unstable with each day. No one can quantitatively determine how 
long it will be before these reach a point of total 
instability. But before we can feel comfortable about beginning 
incineration at UCD, there are a number of safety-related 
issues that must be addressed.
    The most critical of these safety issues is our lack of 
adequate police and fire personnel to respond in the event of 
an emergency. FEMA, the State of Oregon, and CSEPP have tried 
to place responsibility on the local governments to perform a 
number of needed actions, without supplying the necessary 
funding, training and equipment. A primary example is the 
expectation that local police will provide security for the 
school buildings that are over-pressurized, aid in the orderly 
evacuation of residents where required, and man local traffic 
control points. There are approximately 103 full-time and 
reserve officers in our area. Due to vacations, sick leave, 
training out of the area, we could expect a maximum of 30 
officers to be on duty at one time to cover the six cities and 
two county areas that would be affected. It is unreasonable to 
assume that these officers could provide the needed security at 
their school sites, aid in evacuation, and man several traffic 
control points. In addition, the chemical protection suits that 
are proposed have proven to be woefully inadequate in local 
field trials. These same types of problems confront the local 
fire districts that depend primarily or in some cases solely on 
volunteers. How can these small departments be expected to 
respond to the chemical emergency, aid in the evacuation of 
homebound residents, and handle all other calls that are sure 
to surface in the face of a major disaster? To compound this 
problem is the issue of civil disobedience that often follows 
in the footsteps of any large emergencies. Who will be left to 
protect the lives and property in our towns if they are all off 
performing other duties? There are possible solutions to many 
of our concerns, but due to time constraints I will not go into 
detail. I could provide this information on request.
    We, the communities most at risk feel the Federal 
Government, through FEMA, the State of Oregon and the local 
CSEPP need to look at where their budget dollars have been 
spent to date, and why more attention has not been focused on 
the local jurisdictions that will be the first responders in 
the event of a disaster at the Depot. The large emergency 
infrastructure that has been developed will be great for 
information dissemination and strategic command, but little to 
nothing has been spent on the local agencies that will be 
expected to face the reality of a chemical emergency directly. 
Without proper manpower levels, training, equipment and 
environmentally safe local command centers, how will FEMA, the 
State and CSEPP deal with an emergency of this magnitude? Thank 
you very much.
    [The prepared statement of Mr. McCann follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.009
    
    [GRAPHIC] [TIFF OMITTED] T4491.010
    
    Mr. Walden. Thank you, Mayor. Let's go down to Mr. Terry 
Tallman, who is a Morrow County commissioner. Good morning and 
welcome.

     STATEMENT OF TERRY TALLMAN, MORROW COUNTY COMMISSIONER

    Mr. Tallman. Good morning. I want to thank you very much 
for coming to the town of Hermiston letting us speak our 
concerns. I have with me staff from Morrow County, Casey Beard, 
our emergency director, Emergency Management director, Tamara 
Mabbott, our planning director, and Bill Myers, an attorney for 
special projects for Morrow County. My name is Terry Tallman. I 
am the Morrow County judge, a member of Morrow County Court.
    I want to thank you for taking the time to hear our 
concerns and for coming out to Eastern Oregon, a very distinct 
and unique part of the great Northwest. Today I'm here to 
express concerns and ask for your help as the communities of 
Morrow and Umatilla County deal with the impact the Umatilla 
Chemical Depot incinerator project has on this region.
    There are many contentious issues associated with the 
depot, the chemical stockpile program, the Emergency 
Preparedness Program, and alternative technologies. I will 
focus my comments today on the socioeconomic and fiscal impacts 
the program has on our communities.
    Many of the things that I'm saying here probably will be 
somewhat redundant. I hope you will not be offended by my 
reiterating some of your comments.
    Since the early 1960's the U.S. Army has stockpiled some 12 
percent of the Nation's most deadly chemical weapons at the 
Umatilla Chemical Depot, which does lie within the borders of 
both Umatilla and Morrow Counties. Of those weapons, 70 
percent, including nerve agents and blister agents as you have 
mentioned, are in Morrow County. Literally the back yard of the 
most populated region of our county.
    What has the attitude of our residents been toward these 
chemical weapons being placed at the Depot? One might expect to 
hear complaints and outcries about the chemical weapons, but 
history has proven to the contrary. They are extremely 
patriotic and dutiful in their role as hosts. Local residents 
have been remarkably supportive of the Depot, tolerance of the 
presence of deadly chemical weapons and trusting of the Army, 
even though many people work just across a wire fence from the 
Depot. Our communities have been exemplary or their tolerance 
and hospitality. And I am proud to represent those citizens of 
Morrow County today.
    Residents of Morrow and Umatilla Counties were never asked 
permission to store these weapons, and never protested or even 
questioned the Army's actions. The Army never informed local 
communities of a danger from these chemical weapons, and the 
majority of citizens were not even aware of any potential harm. 
Storage was characterized as a relatively safe situation, safe 
enough in fact, that communities were told that there wasn't 
any need to acquire emergency or safety equipment.
    As the need for these weapons changed and we came into the 
international chemical weapons treaty and an order was signed 
by Congress ordering the Army to eliminate those chemical 
weapons, we supported that treaty and the attendant disposal 
program. Our communities have actively participated in the 
CSEPP program and are preparing our communities for any 
potential accident at the Depot. It was through our 
participation in this federally mandated CSEPP program that we 
began to notice how our communities were impacted. Elected and 
appointed officials began to see dramatically increased 
personnel hours dedicated to the program. Police and fire 
departments as has been mentioned particularly had drastically 
increased equipment and staffing needs with many of these needs 
being met completely by volunteer forces. While CSEPP slowly 
began to fund most of these Emergency Preparedness Program 
costs, we also began to recognize other costs that were not 
reimbursed.
    One of the most insidious costs is the form of population 
growth and the bust and boom impact it has on an economy, as 
Congressman Walden mentions. The short-term increase in workers 
on the project is actually a cost rather than a fiscal asset to 
our county. Being transient, construction workers tend to rent 
rather than own. But all of the workers do send their children 
to our schools and our roads and use our infrastructure. Most 
of the longer term and higher level management employees for 
this project actually live in the tri-county Washington area, 
where they are participating as more permanent residents in 
that local economy.
    In Morrow County we have seen very little benefit of that 
growth. We have minimal industrial or commercial sectors that 
could benefit from direct, indirect or induced spending. We 
have found numerous studies which corroborate the experience of 
a negative impact to local governments and economies. These 
studies show the negative impact to be compounded in rural 
economies.
    The impact of this incinerator project is accentuated by 
the fact that the Army pays no property taxes, no corporate 
taxes, and no local income taxes. The State and Federal 
Governments on the other hand do receive revenues from income 
taxes. And in addition to these foregone tax revenues the Army 
and its contractors were exempt from local land use permits, 
which is the typical forum for levying and collecting impact 
funds or other mitigation moneys.
    We have worked diligently over the past several years, my 
predecessors in this county have worked diligently to develop a 
solution to this problem of local taxpayers underwriting a 
Federal project. To put it bluntly, our experience with the 
Army has been frustrating at best. The Army has delayed and 
sometimes misinformed.
    And I know these are strong words to use against the Army, 
but a few examples illustrate my point by saying, that one Army 
official told my predecessor and some staff, there is a way for 
you to get money, but I can't tell you how. In 1997, a 
Congressman, a national Congressman, proposed legislation that 
would address the problem and set aside impact money for 
affected communities, but withdrew the legislation after 
meeting with Army officials who convinced him to drop the 
legislation because we are working on that problem.
    At our request, the 1997 Oregon legislature unanimously 
approved a law that allowed counties to charge a fee for 
storage and handling of the wastes. The Army refused to comply 
with the law, citing Federal sovereignty, which is ironic, 
since a similar law was honored in Tooele County, UT. In 
essence, the Army claims to be exempt from all of the 
traditional tools for taxing growth, to underwriting community 
services and infrastructure, such as roads, sewers, water 
systems and schools.
    One other item I would like to mention. Our primary concern 
is with the negative socioeconomic impacts of the 
demilitarization project, but we do want to express grave 
concerns with the CSEPP funding process. Federal officials have 
imposed a process called a life cycle cost estimate, which 
dramatically underfunds preparedness activities. This life 
cycle cost estimate process is flawed. The counties have never 
agreed to these estimates, but now they are being imposed upon 
them. Nor has these estimates been revised to reflect current 
needs and realities and prior years have been seriously 
underfunded. If allowed to stay, projected budget limits will 
prevent the achievement and maintenance necessary to allow 
adequate emergency preparedness at the county level for 
demilitarization facility.
    In concluding, I would like to ask for your help in 
compelling the Army and other Federal agencies to provide 
appropriate compensation for the costs and impacts our citizens 
have tolerated. Incineration of chemical weapons is not a local 
problem, it is a national problem. Morrow County taxpayers are 
not looking for a windfall. We don't see the Army as the golden 
goose who lays the golden egg. We simply want to bear our fair 
share, but we only want to bear the fair share of the cost. We 
believe Federal action confers Federal responsibility and 
Federal impact requires Federal compensation.
    [The prepared statement of Mr. Tallman follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.011
    
    [GRAPHIC] [TIFF OMITTED] T4491.012
    
    [GRAPHIC] [TIFF OMITTED] T4491.013
    
    [GRAPHIC] [TIFF OMITTED] T4491.014
    
    [GRAPHIC] [TIFF OMITTED] T4491.015
    
    Mr. Walden. Thank you, Judge. Let's go now to Umatilla 
County commissioner, Mr. Dennis Doherty. Good morning and 
welcome.

   STATEMENT OF DENNIS DOHERTY, UMATILLA COUNTY COMMISSIONER

    Mr. Doherty. Mr. Chairman, good morning. My name is Dennis 
Doherty. I live in Hermiston, inside the Depot IRZ. That's the 
``immediate response zone.'' I am one of three Umatilla County 
Commissioners. Chairman Emile Holeman and Commissioner Bill 
Hansell are the others. I speak my own thoughts today. They 
were completed just last night, so my colleagues have not 
previewed them.
    There are four component parts of the chemical 
demilitarization program: Continued safe storage, emergency 
preparedness, destruction of the chemical agents, and program 
support, which necessarily includes impact aid to the local 
communities.
    When the Army was given the chemical demil mission in 1986, 
Congress added explicit direction that the program provide for 
maximum protection of the environment, the public and the Depot 
workers.
    CSEPP was established by the Army in 1988. The stated 
purpose was to help the communities near the stockpile enhance 
their existing emergency management and response capabilities. 
To this day, 13 years later, we don't have a reliable 
comprehensive warning system. The first responders cannot go 
into a risk area. Insofar as I know, the Army does not have a 
plan for the 1,300 to 1,500 workers now onsite other than to 
evacuate them, which then makes them our responsibility.
    Mr. Chairman, managment from the county, the State capitol, 
FEMA Region 10 in Seattle and FEMA Headquarters in Washington, 
DC, may or may not help if we ever do have a real accident. But 
one thing is for sure. Those people, in their safe havens many 
miles away, won't be able to do any on-the-ground response 
during the emergency. That will be left to our small towns, 
schools, rural fire protection districts and the people who are 
in harm's way.
    It's a sad but true fact that a CSEPP program which 
promised to enhance local emergency management response 
capability has delivered so little and taken so long to do even 
that.
    Maybe you've heard this homily: If you go on doing things 
the way you've always done them, you will go on getting the 
results you have always gotten.
    Our citizens deserve better than they've gotten. We don't 
want hype, we need Congress to require Army and FEMA to simply 
deliver maximum protection as they were told to do in 1986. If 
they can't, then give the money to the local communities to do 
their own enhancement.
    Regarding impact aid, please remember that we've been down 
this path before. When the Depot was constructed in 1941 and 
1942, workers needed homes. They hauled ammo boxes off and 
built houses out of them. They hauled pallets off for building 
materials. They built where and what they could afford. They 
dozed out homesites and roads in the sand. We didn't have the 
time or the resources to build nice planned towns. We still, to 
this day, have miles of unimproved streets, both inside and 
outside of town. You don't build communities in the 21st 
century cheaply. To a large degree, that's because of State and 
Federal requirements. Improved streets cost $150 to $200 per 
running foot. Water systems, waste water systems and schools 
cost millions.
    We know. Umatilla, a city that had only a $95 million tax 
base at the time, bonded itself for well over $15 million 
recently for these infrastructure improvements. Hermiston 
voters recently approved a $40 million bond for school 
upgrades. We have concerns that these community debt 
obligations may overwhelm us if we then experience a bust 
economy when the Depot jobs disappear, as they will by 2007. 
Mr. Chairman, I will conclude with these statements for the 
record, directed at the impact aid issue. It's the Army's nerve 
gas and the Army's incinerator. Raytheon is the Army's 
contractor and the Raytheon workers are doing the Army's 
disposal job. The Army could be housing these workers and 
picking up the tab directly. They're not. We're doing that for 
them. The Army needs to pay its share of our bills for this. 
That means impact aid, either from money already appropriated 
or from new appropriations. There won't be a healthy and vital 
chemical demil program until Congress has cured that problem.
    Denial of the responsibility to pay impact aid is not 
defensible. The status quo is not acceptable. Doing nothing is 
not an option. The impact bills are due. This incinerator is 
the Army's baby. It's time for the Army to face up to its 
responsibilities and pay support.
    Thank you, Mr. Chairman. Your presence with us today is an 
honor. We appreciate the opportunity this hearing presents for 
us.
    [The prepared statement of Mr. Doherty follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.016
    
    [GRAPHIC] [TIFF OMITTED] T4491.017
    
    [GRAPHIC] [TIFF OMITTED] T4491.018
    
    [GRAPHIC] [TIFF OMITTED] T4491.019
    
    [GRAPHIC] [TIFF OMITTED] T4491.020
    
    [GRAPHIC] [TIFF OMITTED] T4491.021
    
    Mr. Walden. Thank you very much, Commissioner. Let's go now 
to Mr. Armand Minthorn, who is a member of the Board of 
Trustees of the Confederated Tribes of the Umatilla. Good 
morning, welcome.

 STATEMENT OF ARMAND MINTHORN, BOARD OF TRUSTEES, CONFEDERATED 
                        TRIBES UMATILLA

    Mr. Minthorn. Good morning, Mr. Chairman. And members of 
the committee.
    Mr. Walden. You may want to make sure that microphone is a 
little closer and turned on. Thank you.
    Mr. Minthorn. My name is Armand Minthorn. I am a member of 
the Board of Trustees of the governing body of the Confederated 
Tribes of the Umatilla Indian Reservation.
    Thank you for the opportunity to identify some of our 
concerns regarding the proposal to incinerate over 3,700 tons 
of mustard and nerve agents, all weapons of mass destruction.
    I'd like to first welcome you to the homeland of the three 
Columbia Basin plateau Tribes that comprise the CTUIR, 
including the Cayuse, Walla Walla, and Umatilla. The three 
Tribes signed the treaty of 1855 with the U.S. Government that 
outlined a territory of approximately 6.4 million acres of 
ceded land where treaty reserve rights are retained, including 
fishing, hunting, gathering of plants and pasturing livestock. 
These rights extend throughout today's Northeast Oregon and 
Southeast Washington state. In addition, the treaty of 1855 
established the Umatilla Indian Reservation 8 miles east of 
Pendleton where our thriving economy is now recognized as the 
largest in Umatilla and Morrow Counties.
    The CTUIR issued a letter to Governor Kitzhaber in February 
1996 requesting that he deny the Army's permit request until 
certain conditions are met, and those conditions are outlined 
in your handout. I would like to continue to express concerns 
and technical concerns the tribe has, and they are as follows: 
No. 1, Emergency Preparedness and transportation. No. 2, 
environmental and health monitoring. No. 3, carbon filter. No. 
4, dunnage incinerator. And last, impact aid.
    Emergency preparedness. The tribe continually presses at 
the national and local level on a variety of emergency response 
concerns, including preparedness under the Chemical Stockpile 
Emergency Preparedness Program. Although there is progress, it 
is not at the pace acceptable to the tribe. Initially the tribe 
was not consulted on emergency response issues because, some 
thought, the diminished Reservation boundary is outside the 50 
kilometer emergency planning zone, a myth now reversed.
    The CTUIR Fire Department is recognized as an essential 
component for regional emergency preparedness activities, at 
the Depot and at other facilities such as Hanford.
    The Tribes' issues regarding communications and 
notification are slowly progressing. For instance, other 
entities and fire departments are further along in the 
development of their communication plans. The reason why is 
because CSEPP has not sufficiently followed through with their 
pledge to upgrade the communication systems of the Tribal Fire 
Department. We shouldn't have to coordinate with counties but 
should be dealt with directly for resources and/or services.
    Environmental and health monitoring. The Tribes' treaty 
reserved rights and culture are based on the use of natural and 
cultural resources throughout the ceded lands and at usual and 
accustomed sites. As an example, the Tribes re-established 
salmon runs after 70 years of extinction in the Umatilla River.
    The State required the Army, through the permit process, to 
develop a comprehensive monitoring program. The program is set 
to sample air, soil, water, flora and fauna in the three zones 
located in Oregon and Washington States.
    While the State and tribe have cooperated in developing the 
comprehensive monitoring program for the environment, there is 
no human health monitoring. In terms of human health monitoring 
the agents as an example organophosphates are neurological 
disrupters, their original design. The Depot also in the middle 
of some of the richest farm land in the area and low-level 
exposure through food stuff or workplace occupations over an 
extended period of time should be investigated to ensure our 
communities that no risk is confirmed. This should include both 
resident and economic customers of our products. Therefore, 
human monitoring should be instituted immediately.
    The CTUIR feels that it is essential that mitigation be a 
factor to address threats to our treaty resources. One of the 
main attempts of the comprehensive monitoring program is to 
establish baseline environmental monitoring before, during and 
after incineration, and in the event there is a deviation from 
that baseline, there should be mitigation. Without human health 
monitoring, it will be difficult, if not impossible, to 
identify mitigation measures and remediation actions.
    Carbon filter. As a permit condition, the State of Oregon 
Environmental Quality Commission required carbon filters for 
the incinerators. The filters changed the efficiency of the 
operation of the incinerator and because of lack of operation 
at JACADS or Utah, there is no experience or operational 
readiness that the Army can use to demonstrate the 
effectiveness of carbon filters.
    Dunnage incinerator. The Army and the State should submit 
for Tribal review a storage plan for waste that was scheduled 
for the dunnage incinerator. This plan should include volume 
types and length of stay for these wastes as well as potential 
receptor facilities. In addition and in concert with the CTUIR 
the Army should coordinate any transportation plans because of 
the majority of the waste it is projected will be transported 
across the most dangerous route in Oregon, the Blue Mountains, 
and the Umatilla Indian Reservation. Any proposed permit 
modification is a serious concern.
    Finally, impact aid. The CTUIR supports the efforts of the 
counties and cities in their request for impact aid.
    And in conclusion, these areas that have been cited as 
concerns with the Tribes, this will only continue the 
transportation, the emergency preparedness, environmental and 
health monitoring. I thank you for your time today.
    [The prepared statement of Mr. Minthorn follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.022
    
    [GRAPHIC] [TIFF OMITTED] T4491.023
    
    [GRAPHIC] [TIFF OMITTED] T4491.024
    
    [GRAPHIC] [TIFF OMITTED] T4491.025
    
    [GRAPHIC] [TIFF OMITTED] T4491.026
    
    [GRAPHIC] [TIFF OMITTED] T4491.027
    
    [GRAPHIC] [TIFF OMITTED] T4491.028
    
    Mr. Walden. Thank you for your testimony. Appreciate it.
    Now for our final witness on this panel, I'd like to turn 
to Dr. Fred Obermiller of the Department of Agriculture and 
Resource Economics from Oregon State University. Dr. 
Obermiller, good morning, thank you for coming.

  STATEMENT OF FRED OBERMILLER, DEPARTMENT OF AGRICULTURE AND 
          RESOURCE ECONOMICS, OREGON STATE UNIVERSITY

    Mr. Obermiller. Thank you for inviting me, it's a pleasure 
to be here, Congressman, Congressman Horn. Thank you for the 
opportunity.
    A little while ago John Snyder said, Dr. Obermiller, what 
are you doing here? You are normally talking to us about public 
lands issues.
    But I have another area of expertise, and that is regional 
economic impact analysis, and have done a study recently 
dealing with the structure of the Morrow County economy.
    Because of that, the county planning director and 
commissioners in Morrow County asked if I would help them take 
a look at the local economic impacts of this incineration 
project a year ago, which we've done, and there's not really 
enough time to talk about it in-depth this morning, and I won't 
try to do that, and I won't try to repeat what were I thought 
eloquent comments that the mayors and commissioners made 
earlier.
    What I will have to say deals largely with Morrow County. 
But I want you to know this, that in an absolute sense, the 
largest community level impacts are going to be felt in 
northwestern Umatilla County. In a relative sense, given the 
very small size of the communities and tax base, the relatively 
largest impacts are going to be felt in Morrow County, northern 
Morrow County.
    I would say that in generic terms you're probably looking 
at a 12 to 15 percent population increase with attendant 
increase in demand on an already inadequate community 
infrastructure over the duration of the project.
    A couple of things about the Morrow County economy may 
explain why the relative impact is going to be as large as it 
is going to be, is already being in Morrow County. Morrow 
County, which is the 27th incorporated county in Oregon, split 
off from Umatilla County in 1885. It was a farming and ranching 
county. And all the infrastructure that developed in Morrow 
County, small as it is, centered around those two dominant 
industries.
    So then when the Federal Government came in with a series 
of major projects, like the Army Depot, the Navy Bombing Range, 
McNary Dam complex, there was not an infrastructure in Morrow 
County to support it. And so consequently you had short-term 
population increase, increase in demand for services, but there 
wasn't much of a secondary effect.
    Now, when we did this Morrow County study, we came up with, 
among other things, multipliers. County level multipliers 
normally are in the range of about two to three, meaning that 
for every $1 spent in the county, you will get an additional $1 
or $2 in re-spending.
    That's not the way it is here. From that study I pulled out 
what some of the multipliers are in Morrow County. And I'll 
just quickly summarize them. The household income, say, wages 
being spent, multiplier is 1.57 from this study. So for every 
$1, you get another 57 cents, not another $1 to $2. And it gets 
worse. Construction. 1.28. Automotive sales and services, 1.30.
    One of the major non-Federal developments in northern 
Morrow County has been the advent of those big center pivot 
systems, since the mid 1970's. There is no infrastructure to 
support it. The multiplier for the center pivot irrigation 
systems is 1.29. An additional 29 cents for every $1 that's 
spent.
    So the point is that Morrow County is an economic wind 
funnel. It's a colony almost of Umatilla County, which is in an 
economic sense what it started out being, and to a very large 
extent what it still is.
    So, for those reasons, when you get an additional 500 to 
600 people, including kids, living in Irrigon and Boardman 
primarily as a consequence of this project, there really is no 
boom. We call it a boom and bust. It's just basically a bust 
and bust. There's a short term increased demand for community 
services, and somehow or another the services have been 
provided. When the incinerator project is over and the workers 
leave, the locals are left bearing the costs.
    Here's a quick number for you. If the Army Depot had not 
been built and that land had remained on private property 
rolls, the amount of property taxes collected over time would 
have been about $3 million, which gives you an example of 
foregone local revenue as a consequence of the Federal project.
    I know my time is up. I want to make a couple of comments 
quickly. I think that there are both statutory and also 
negotiated precedents for mitigation in the current case. We 
have the Payments In Lieu Of Taxes Act, 31 U.S.C. 6901. We've 
got 42 U.S.C. 3374, which deals with the acquisition of 
property at or near military bases, which have been ordered to 
be closed. We have a parallel statute which says that the 
Department of Defense will pay fair market value for private 
grazing permits taken for war or national defense purposes. And 
of course we have the Tooele settlement.
    So, to me it's a moot point as to whether or not mitigation 
is feasible. I think it is feasible. It's just a matter of 
negotiating what's fair. Thank you.
    [The prepared statement of Mr. Obermiller follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.029
    
    [GRAPHIC] [TIFF OMITTED] T4491.030
    
    [GRAPHIC] [TIFF OMITTED] T4491.031
    
    [GRAPHIC] [TIFF OMITTED] T4491.032
    
    Mr. Walden. Thank you, Dr. Obermiller. Now we will move 
into the question phase. The staff will be circulating some 
cards out into the audience. If you have a question you'd like 
the panel to ask. Yes, Mayor.
    Mr. Hardenrider. Mr. Walden, could I----
    Mr. Walden. If you are going to, you have to be sworn.
    Mr. Hardenrider. I was sworn in.
    Mr. Walden. Then you need to come up to the microphone.
    Mr. Hardenrider. I am Mayor Frank Harkenrider. I will just 
take a few minutes of your time.
    Welcome to Hermiston. The watermelon capital of the world.
    A couple of things. What really concerns me more, all these 
people are right. You have 105,000 M-55 rockets located at the 
Umatilla Army Depot. The National Research Council was 
appointed either by Congress or the President of the United 
States. The best scientists in the world. They have told us for 
the last 14 years they are the most dangerous. Please do not 
cut the budget at $380 million out here. Let's get rid of those 
rockets. If you delay and cut this budget, that delays the 
incineration of the rockets.
    Remember, the risk of storage is greater than the risk of 
incineration. And it's on your shoulders, if one of those takes 
off and explodes, it's going to be terrible for this whole 
community and the surrounding areas.
    And I thank you for coming to Hermiston. Don't forget those 
rockets. Thank you very much.
    Mr. Walden. Thank you, Mayor. I want to start with some 
questions for our two county commissioners on the panel, and 
others if they want to weigh in, in terms of the financial 
impact of the Depot on your counties so far.
    Have you quantified what that is? What have you spent so 
far?
    Mr. Doherty. Mr. Chairman, let me address that first. 
Umatilla County has done a two part study quantifying impacts. 
One of the things that you have to understand about the 
incinerator is the timing.
    The incinerator came just at the same time that the Wal-
Mart distribution center, the railroad expansion and the State 
prison in Umatilla came. So we have a compression of the impact 
because of the advent of not one but four major projects in the 
area.
    And so what we did was we formed a group in West County 
called the Hermiston-Umatilla-Echo-Stanfield Study Group. The 
cities and county together put up approximately $65,000, and 
they did a quantification impact study of the impact of all 
four together.
    Then in the second phase we put up approximately another 
$25,000 to do a study of just the impacts that could be 
extrapolated from the Depot itself. And from that study we 
identified the impacts on infrastructure and general government 
services. And from that study we then quantified our impact aid 
request at $30 million. That's what we have been requesting and 
what we continue to request.
    Our neighbor to the west, Morrow County, has approached it 
a little bit differently, and it amounts to the same thing, and 
we support their request, which is $20 million.
    I defer now to Commissioner Tallman, I should say Judge 
Tallman, because in Morrow County they have a county judge.
    Mr. Walden. Judge.
    Mr. Tallman. Yes. With some of the study that Dr. 
Obermiller has mentioned, that number is approximately $20 
million, probably just a little bit less than that, but 
approximately $20 million.
    We do not have the dollars to spend on the studies that 
Umatilla County did, and we did it more with an in-house type 
of study, and some with the help then of OSU, and we came up 
with that figure of roughly $20 million.
    Mr. Horn. If I might, I'd be curious on the projects you 
mentioned. Has that provided jobs for the people in the 
counties affected? And if so, do you have a labor shortage 
here, or an unemployment situation?
    Mr. Doherty. We do have severe work force limitations in 
the area. We don't have the kind of history where going into 
these four projects we had a highly skilled work force 
available.
    Let me just speak to the prison. The prison project was 
announced just a matter of months before the announcement was 
made that the incinerator project would go ahead.
    When the prison project came in and in the city of 
Umatilla, you're talking about a community of 3500 people with 
a total tax base of $95 million. Then comes the State prison, 
which has a budget of $150 million, way more than the entire 
value of the town, bringing with it construction and operating 
workers in the range of 600 to 800. And each of them bring 
families. I shouldn't say each of them bring families. But the 
ones that are settling there bring families, children who have 
to go to school, et cetera.
    Now, the work force that's supplying those jobs is going to 
draw not just from Umatilla, but it's going to draw from the 
other communities, it's going to draw from the Tri-Cities up in 
Washington, possibly Walla Walla, other parts of Umatilla 
County.
    Mr. Horn. Well, to what extent was there an attempt made by 
the State? What attempt was made to train and provide 
apprentice jobs and so forth to people in the area so that 
during the construction phase they would have some employment?
    Mr. Doherty. Congressman Horn, I don't think there was 
time, once this thing was on us, to really do that kind of 
training, because it was announced in January 1997, it was 
under construction just months after it. It's on a fast track 
just like the incinerator is.
    The State is doing some things. And in fairness to the 
State of Oregon on that project, I would like to also emphasize 
that the State is contributing in other ways to help mitigate 
the impacts. They're doing some road work. They're doing some 
other things in the community of Umatilla. In our case, with 
the incinerator, there isn't anything being done to my 
knowledge to mitigate that part of the total impacts that is 
attributable to just the incinerator.
    Mr. Horn. Yeah. When that panel comes, we certainly want 
them to explain. Do they have programs such as that? Because 
that's just common across the country in terms of base closure, 
to, one, talk about options of other bases, and, two, to give 
personnel development that would enable people to hold jobs. 
And let me move from that to the impact aid. I assume we're 
talking about the law, Public Laws 874 and 815 on aid to 
schools.
    Now, has that money come here as a result of the Army's 
presence here?
    Mr. Doherty. To my knowledge, it has not. Commissioner 
Tallman, do you know anything about that?
    Mr. Tallman. No.
    Mr. Horn. No impact aid. OK.
    Mr. Tallman. I would just like to say in terms of our 
unemployment figures, the State average for the State of Oregon 
I think I just heard the other day on the radio is about 5.5, 
5.6, something like that. The figure for Morrow County is 9.3.
    So, even though we do have some spillover in some jobs from 
some of these other sites, our unemployment rates are still 
very, very high in Morrow County.
    Mr. Horn. I see we don't have your public health people 
here. Are there surveys within the impacted area here which 
show either forms of cancer out of proportion to other areas or 
what do we know on public health factors and the possible 
situation when we don't know what's either loose or how well 
it's contained.
    We'll ask the second panel that. But what do we know about 
it from you as the public officials side?
    Mr. Tallman. From what I've heard, the ongoing search for 
that kind of information does impact us because of Hanford. And 
that is a question, you know, that has been very contentious, 
ongoing, and there have been studies that have been released 
and there are famous downwinder studies, and they say there is 
absolutely no problem.
    I have no documented evidence to indicate one way or the 
other, you know, what we really know in our county. It has 
always been our contention that we believe that there is more 
of a problem than has been stated by these studies that come 
out of these agencies like this.
    Mr. Horn. Now, has the State Department of Public Health 
ever done a study here? That's their responsibility for the 
State.
    Mr. Tallman. Not that I'm aware of are.
    Mr. Doherty. Congressman, let me expand a little bit on 
that. I, like Judge Tallman, don't think that such a study has 
been done.
    But the concern here is not any impact that we may have had 
up to now. I think the chemicals have been pretty well stored. 
The Commanders out at the depot, the civilian employees who are 
working out there, I think they've done a good job.
    We're not so much concerned about the storage issue as we 
are about once the incineration gets underway, and this 
chemical is being burned, it's going to be emitted into the 
air. And from that point forward, from that point forward there 
might be some things that would concern my friend, Mr. 
Minthorn, for instance. And that maybe should be monitored very 
closely.
    But at the time being, no, we're not looking backward and 
seeing a problem that I know of.
    I would like to also caution the subcommittee in this 
sense. Let's not fall into the trap that I think a lot of 
people have fallen into. Boom, the incineration project comes. 
Boom, jobs come. Boom, workers come. This is a boom. This 
produces money that's in circulation.
    These short-term economic benefits people think are just 
great, we ought to be satisfied to just have them.
    We're trying to look beyond that. We're trying to look at 
the cost to government, which is associated with that, the cost 
to the taxpayers themselves when they go on servicing that 
long-term debt that's incurred. Those factors are very 
important to us. And I think they would be to you because of 
your experience with the closure of the Naval base. They do 
impact us. I know that you're aware of that.
    Mr. Tallman. I would just like to add, I do know that our 
Emergency Management Director, Casey Beard, has asked, I have 
been at meetings where he has asked and made a statement that 
it would be good if we could do some health studies to 
establish these baseline numbers that I think that Armand was 
talking about. But of course those studies do take money, and 
I'm sure that the Oregon Health Division would be very 
interested in helping us with that. But I know over the past 
several years that their budget has always been one of the 
first to be cut in the State of Oregon. So they just do not 
have the money or the manpower to conduct that kind of study. 
But it has been asked, but nothing has ever been done about it.
    Mr. Horn. One of the members of the audience has said, and 
it's a good question, have the communities received any aid 
from the so-called BRAC closure, which is the Base Realignment 
and Closure Act, and any programs. We sort of fished for it in 
various points.
    Mr. Tallman. I would allow my planner to, county planner, 
to discuss that with you. This is Tamara Mabbott.
    Ms. Mabbott. Thank you, Senator Horn, for asking that 
question, and since you are a host to a large community in 
Lakewood, I thought this might ring home for you.
    Actually the communities have not received impact aid so to 
speak from the BRAC, Base Realignment and Closure Program.
    For the past 8 years approximately there has been something 
called the local reuse authority appointed by Congress made up 
of the two counties and two members from the Confederated 
Tribes. So we are studying the reuse of the facility. And we've 
spent a very frustrating 2 years most recently trying to figure 
out ways to generate revenue from interim leasing.
    So the Army has said, we will allow you to generate some 
revenue off of those properties, very limited number of 
acreages, that are outside what they call the 1 percent 
lethality zone, which means everything that's within the 1 
percent lethality zone is doomed if there is any accident out 
there.
    To date we have not generated any revenues. We had 
submitted a grant application through the BRAC program to 
receive funds to study impact aid. And the BRAC program, as you 
probably are well aware, is structured to address job loss, not 
job and economic growth. So we are in sort of a catch-22 
situation. So with regard to impact aid, it has not been 
beneficial.
    Mr. Horn. Well, I think you're absolutely correct. And one 
of my problems with the Department of Defense over my 6 years 
in Congress, especially going through these base closures in 
our area, is that they keep the environmental money, and if the 
Deputy Assistant Secretary of the Army when he testifies can 
straighten us out if we are wrong on this.
    And, frankly, it is the slowest agency in Washington, DC, 
as far as I'm concerned, and how you prod them into doing 
something, I'll never know. It's very bureaucratic and very 
slow.
    We're still sitting around waiting for the U.S. Navy to 
convey surplus property when we gave it to them for $1 during 
the second world war. And it's just unbelievable. I regard them 
as the most laggard, even behind the Department of Defense.
    But I'd appreciate it very much if the Deputy Assistant 
Secretary could educate us on what that situation is. We give 
them the money out of the Armed Forces authorization and 
appropriations. Talk about trickle down. It has dropped down, 
you know, a few here and a few there. But definitely there 
ought to not only be Defense involvement, there ought to be HUD 
involvement in terms of housing and other things.
    The administration ought to get a focus on this where they 
would have, and HUD has been very supportive with economic 
development. Department of Justice and the President's cops 
program. That has its ups and downs, but you should apply for 
it, because it certainly happened to our agriculturally 
oriented counties in California. And I think in a way I feel 
like this is where I grew up in California, just looking at the 
farming and the trees and small populations.
    But they can pull that together at the national level, and 
they should, and we'll try to help them.
    Mr. Tallman. Thank you.
    Mr. Horn. We have another one, Mr. Chairman, I don't quite 
understand part of it, so maybe the Colonel can tell us. It's 
the recent radio ads assure residents that the children will be 
safe in over-pressurized schools. What about those communities 
whose schools are not over-pressurized? Does that also imply 
that those of us who are not in over-pressurized buildings are 
not safe? Will the Army fund the cost of over-pressurization in 
school buildings or safety shelters? And we probably ought to 
ask that of the Army when they come up. But maybe somebody here 
has a perception on this.
    Mr. Doherty. We have a couple of resource persons present 
who can address that.
    Mr. Horn. Why don't you identify yourself and position.
    Mr. Beard. I am Casey Beard, the emergency management 
director for Morrow County. And the question is one that raises 
a great deal of concern to us in the Emergency Management 
community here locally.
    Recently we believe we've had some breakthroughs in dealing 
with our State and Federal counterparts to address this very 
concern. Some years ago we made a decision based on several 
studies and application of common sense and local perspective 
that many of the schools that were closest to the Depot just 
did not have time to allow for a safe evacuation.
    So we became the Nation's leader in a project called over-
pressurization, so that all of the schools essentially that are 
within 5 to 7 miles have been over-pressurized.
    Mr. Horn. Could you explain that for me? Pardon my 
ignorance. What do you mean by over-pressurization?
    Mr. Beard. Basically, we have a series of filters that are 
located outside the school, and the potentially contaminated 
air is pumped through those filters and all of the nerve or 
mustard agent is removed through the filtering process. The 
clean air is then pumped into the enclosed part of the facility 
at an air pressure that's higher than the ambient air pressure 
outside.
    So since some of these are older buildings that they are 
retrofitting, there are always going to be some leaks and 
cracks. Because the air pressure with the purified air is 
higher inside, if there is leakage, it is from inside out. Also 
if you have an emergency, a window were broken or a door was 
accidentally opened, the pressure is sufficient so that it 
would accommodate those accidental penetrations of the over-
pressurized facility.
    The concern is that we made that decision because of time. 
But if you were further away, you had the luxury of more time, 
but if you don't have the transportation assets, buses, and 
more importantly, the people to drive those buses, you would 
squander that opportunity that you have because you're further 
away.
    And some schools, particularly Stanfield and Echo, have 
recently received buses so that they have enough on hand and 
the staff trained that are immediately at the facility to get 
the children in, drive them away.
    The most contentious remaining issue is the town of 
Boardman which is located west of the area. And we believe we 
have reached a resolution through an innovative way, the 
schools, the local communities, Mid-Columbia Bus, are working 
together to lease purchase some buses at a reduced cost for the 
life of the program, and that's included in our Federal budget 
supplies for the year 2000, and if we are successful in 
achieving that funding, we believe that we will have addressed 
this particular issue.
    And it's one of those things that we're glad that it's 
happening now but it's taken us a very long time to get it 
resolved. And it's very important to us because if you can 
prove to the people in the community you can keep their 
children safe, then they will be far more willing to 
participate and do the things that we ask them to protect 
themselves.
    Mr. Horn. Well, that's an excellent point. I'm glad that 
question was asked. Thank you.
    Mr. Tallman. Mr. Chairman, I think there is some concern, 
maybe someone who does want to talk about this, there is some 
concern that there might be some places in the town of Umatilla 
that haven't been over-pressurized yet. I know that they are 
working on that, and all of that, and some of that may have 
been submitted late. But I think that may have been, if that 
person is from Umatilla, I would suspect that's what that 
question is asking, questioner is asking about. So there is 
still some work to be done on the over-pressurization.
    Mr. Walden. Mr. Chairman, this one, I don't know if it is 
necessarily directed at the panel, perhaps as much for us to 
consider, especially since we also serve on the committee that 
has oversight over the sensus. It is from the mayor of Irrigon, 
which says, Irrigon is a bedroom community which in the past 
has relied on grants heavily with the census in 2000. This 
growth as a result of the Umatilla Army chemical disposal will 
greatly impact us not only because of the population increase 
but also the higher income level caused by the wages paid at 
the Depot.
    So, in other words, they are going to have this influx of 
higher paid people that would not normally be here, they will 
get counted, counted as if they are a higher wage, therefore 
they won't qualify for some of the traditional funding they 
will get for their economic status, and that will have a tail 
of 5 to 7 years. And I don't know if there is a way to address 
that or not within the census process.
    Mr. Horn. That's a temporary use of people. But it isn't a 
long-term solution to the unemployment.
    Mr. Walden. And in fact works against them in the long-
term, because it sets the standard for their income level for 
the community, because they happen to be here right in that 
turnaround time.
    There's another question from an audience member, perhaps 
not to the panel, what economic impact, if any, would changing 
from incineration to another disposal technology have on the 
local economies? Does anyone want to address that on this 
panel? Dr. Obermiller.
    Mr. Obermiller. Well, the issue would be, if you shifted to 
another technology, what would be the employee work force 
profile and associated wages.
    Other than that, if there was some sort of buy locally, if 
at all possible, directive that was associated with the change 
in technology, that could make a difference.
    Mr. Tallman. It has always been our position that we 
support getting it burned with this incinerator. That has been 
our position.
    We realize that there is other technology out there and 
there are people that have those questions that that's the best 
way to do it.
    We haven't been presented with any information yet that we 
know of that indicates that that's really true.
    The main thing, just like the mayor of Hermiston has 
already said, let's get them burned. That's what we're most 
concerned about. And we'd like to get that done. And that's the 
way that we're pushing. But we don't want to do it at the cost 
of safety.
    Mr. Horn. Let me ask you a couple of points. Are community 
sewer systems used by the Army Depot, and when you think of 
infrastructure, is there a problem there in terms of waste 
going through those sewer systems?
    Mr. Tallman. No, sir.
    Mr. Horn. So it isn't a problem?
    Mr. McCann. Mr. Chairman, I think I can address that from 
the community level.
    What our concerns are, are not so much with any of this 
material coming from the Depot into our public utility systems. 
It's the increased population into our communities as a result 
of the procedures at the Depot. Nothing directly from the Depot 
would come into our community utility systems.
    Mr. Horn. In other words, it's just the normal 
infrastructure needed when a town expands.
    Mr. McCann. Yes, sir.
    Mr. Horn. There's usually fire agreements between fire 
departments in cities, counties, State in an area. Now, I 
noticed coming in, they obviously correctly have their own fire 
units there. But I would think there would be a need to call 
upon surrounding ones if you had a major problem.
    And I guess I would ask the question, do the fire people 
that are not in the Army Depot area but are in your cities, 
counties, State, do they know and have the procedures and the 
training if something really happened there to be up to speed 
on it?
    Mr. McCann. It's a slow process, and we're not there yet. 
Chief Stearns might have something to say about that.
    Mr. Walden. Chief, if you could come and take a microphone, 
so everyone could hear you. And we will under our rules need to 
swear you in, as well.
    Mr. Stearns. I already did that.
    Mr. Walden. So you are taken care of.
    Mr. Stearns. We do have multiple aid contracts throughout 
the Umatilla Morrow County, and that includes Umatilla Chemical 
Depot as a player on that.
    And, yes, in times of emergency, be it chemical event or 
the routine fire out there, we are called upon to interact with 
them. Training and preparation is an ongoing issue with us.
    We are all primarily volunteer organizations in this area. 
I have the luxury of having the largest fire department in the 
area and a few paid staff. We are still a combination of paid 
and volunteer. The other departments around are primarily 
volunteer organizations.
    The training has been slow in coming, but I think we're 
headed there, we're getting it. The equipment to equip our 
personnel to be able to deal with an event in the community is 
coming. We're not there yet, but there's a light at the end of 
that tunnel as well.
    Mr. Horn. Well, have there been exercises of the Army and 
the county and the city at the same time?
    Mr. Stearns. There have been exercises. We have been 
limited in what we have been able to do in those exercises, 
because of the limitations on training and equipment. The 
volunteer organizations here have a fairly large turnover in 
personnel, so training is going to be an ongoing issue. We have 
fire departments to run and emergency ambulance services to 
provide. Trying to squeeze the Depot training in on top of that 
is a challenge to us. We have personnel limitations.
    And of course we have an impact as all others do with the 
increased people in the area, the demand from out there, and no 
tax revenue coming to us to support those services. So it is 
certainly a challenge.
    Mr. Horn. I have a card where someone in the audience has 
talked about the status of first response units.
    We've talked about the fire department. You've mentioned 
the ambulances. Is there anything else where training is 
needed, part of a plan where you have all of those interacting 
with each other?
    Mr. Stearns. Yes, there is.
    Mr. Horn. Including the police, obviously.
    Mr. Stearns. Including the police. There are traffic 
control points. And there is also decontamination of the 
public. We have decon units that we're intended to man at 
central points located, so in the case of emergency we can 
provide decon.
    All of those things require personnel to staff them. We 
provide hazardous materials response services, fire response, 
ambulance response, and decon. We do all of those with the same 
core group of people. We can do one of those missions pretty 
well. We don't have the personnel to staff all of those in time 
of emergency.
    Mr. Horn. Thank you very much, Chief.
    Mr. Walden. I will followup on that with Mr. Minthorn as 
well.
    Could you describe what the Tribes have in terms of 
equipment and personnel to be able to assist in this effort and 
what needs you might have?
    Mr. Minthorn. The Tribes, and I would share the frustration 
with the other counties, originally the Tribes were not even 
included in emergency management. We weren't even considered. 
But that is beginning to change, very slowly, and I would share 
the other counties' concerns with the slowness.
    But the Tribes are now beginning to network with local 
emergency managers. It's beginning to happen. The equipment, as 
far as what the Tribes have in their capabilities are now being 
strengthened to network with local responders, but I would 
again cite the frustration that is still there because of the 
progress and how slow the progress is.
    Mr. Horn. On that point, if I might, Mr. Chairman, to just 
go down the row, one of our basic questions of this panel was, 
does each of you feel that your communities are sufficiently 
equipped to handle a chemical emergency.
    And, Mr. Minthorn, I think you'd say no to that answer. 
Would you?
    Mr. Minthorn. Yes.
    Mr. Walden. And then Mr. Doherty?
    Mr. Doherty. Mr. Chairman, I would say no, and I want to 
add this observation. I don't know if it came through in Jim 
Stearns' testimony, but in this area, our rural fire protection 
districts are our first responders. They're the pick, axe and 
shovel people on the ground. They have HAZ-MAT 
responsibilities, ambulance responsibilities, a lot more than 
just fighting fires. And they don't have any direct resources 
that I know of from CSEPP.
    I have suggested in my written statement that CSEPP should 
fund a position in every one of those six fire departments. 
That's Hermiston, Umatilla, Echo, Irrigon, and Boardman, so 
that the limitations that Jim Stearns was talking about will be 
mitigated to some extent.
    Mr. Walden. Mr. Tallman, Mr. McCann.
    Mr. Tallman. Yes. Presently I'd have to say no. We know 
that improvements are being made, but presently we would not be 
able to respond 100 percent as we would really like at that 
maximum protection as the mission statement says.
    Mr. Walden. Mr. McCann.
    Mr. McCann. As far as the communities are involved, I would 
have to also say no.
    Mr. Horn. Well, I'm going to assume, but I don't want to 
put words in your mouth, have the local emergency response 
teams been issued all the necessary equipment, given the 
training needed to handle a chemical emergency?
    Mr. McCann. I would have to defer that question again to 
Chief Stearns. Is he still here?
    Mr. Stearns. And the answer is no, simply.
    Mr. Horn. OK. Thank you, Chief.
    Any other comments? I think you're feeling that way 
certainly.
    Mr. Minthorn. Yes. Just as a final comment, Mr. Chairman, I 
know that the Tribes, we do have an agreement with the 
Department of Defense we entered into in 1996, and it is a 
first. I understand that there are no other Tribes that have an 
agreement such as ours.
    We continue, Mr. Chairman, to cite in many forms and in 
many manners the Tribes' sovereignty, but in particular the 
sovereignty that we have is because of the resources, our 
traditional resources. My lifestyle is dependent on those 
resources. Right now I consider my resources at risk. 
Therefore, my lifestyle is at risk.
    I ask you, Mr. Chairman, to fully consider what you have 
heard here today. I have a life way that has sustained my 
ancestors for over 10,000 years. We are continuing to practice 
and maintain our cultural way of life, even though there is a 
Federal Government, even though there are Federal laws, there 
still needs to be an effort and an acknowledgement of my way of 
life through the treaty of 1855 and my lifestyle.
    I ask you, Mr. Chairman, to fully consider what you've 
heard today.
    Mr. Horn. Thank you very much. I appreciate that.
    Any other questions we have from the floor? If not.
    Mr. Walden. We will move on to the next panel. I'd like to 
thank this panel for your presentations. They have been most 
insightful and helpful in our process here. We will call up the 
next panel of witnesses, then, if you will take your seats. And 
if I could ask each member of the panel and any staff you have 
to make comments stand and take the oath, as well. If you will 
raise your right hands.
    [Witnesses sworn.]
    Mr. Walden. Thank you. Please be seated. We will lead off 
on panel two with Dr. Theodore Prociv, who is the Deputy 
Assistant Secretary of the Army for Chemical Demilitarization, 
Department of the Army.
    Good morning. Welcome. Thank you for being here.

STATEMENT OF THEODORE M. PROCIV, DEPUTY ASSISTANT SECRETARY OF 
 THE ARMY FOR CHEMICAL DEMILITARIZATION, DEPARTMENT OF THE ARMY

    Mr. Prociv. Good morning. Thank you. And thank you for the 
invitation. We are pleased to be here to discuss this very 
important program.
    What I'm going to do is read a very short oral statement 
but submit a longer statement for the record.
    Mr. Walden. That will be fine.
    Mr. Prociv. Thank you. Thank you again for the opportunity 
to speak with you about the U.S. Chemical Demilitarization 
Program and its role in the communities of Umatilla and 
Hermiston.
    I am grateful for your interest and continued support of 
this very important national program. Our overall mission is to 
safely destroy the U.S. inventory of chemical agents and 
munitions and related non-stockpile while providing enhanced 
emergency preparedness and response capabilities to the 
communities where the stockpiles are maintained and will be 
destroyed.
    Mr. Bacon, the Program Manager for Chemical 
Demilitarization, will provide you a detailed overview of the 
program, and Mr. de Courcy from the Federal Emergency 
Management Agency [FEMA] will provide you with an overview of 
the Chemical Stockpile Emergency Preparedness Program.
    I want to use my time here to give you sort of an overview 
and a view of the vision where we're going with this program. 
The Chemical Demilitarization Program was really begun to 
remove a threat caused by continued storage of these chemical 
weapons. The youngest of these weapons is about 40 years old. 
They were never meant to be stored that long and it is 
imperative that we get on with removing these.
    In addition, the program also inspires a worldwide 
commitment to the elimination of a complete class of weapons of 
mass destruction.
    So we're an integral part of a chemical weapons convention 
and a much more global program that will help the world rid 
ourselves entirely of the chemical weapons. They originally 
consisted of over 31,000 tons of chemical weapons at military 
depots in eight states and Johnston Island in the Pacific. The 
non-stockpiled part of this, and we use that term non-
stockpiled, is basically the material that was not declared 
under the treaty, which consists of remnant munitions that have 
been dug up from training rounds, old equipment, training kits, 
even some of the facilities that we used to manufacture the 
chemical agents in. So that's also a sizable part of the 
program. This material is potentially at 99 suspect sites in 38 
States. So it's a very large program.
    In Umatilla the chemical weapons stockpile consists of 
3,717 tons of chemical agent, which is about 12 percent of the 
U.S. stockpile.
    It's important to eliminate these weapons because the 
stockpile serves no useful defense purpose, but poses real and 
now unnecessary risk of accidental release of hazardous 
material. The U.S. military has determined that chemical 
weapons are no longer a part of our tactical strategy, have no 
real effect on giving us an advantage at the battlefield, and 
therefore it's time for us to get rid of these weapons.
    The chemical demilitarization program is not a traditional 
Army mission. The Army traditionally doesn't build chemical 
plants, but the Army has been given this job to be executive 
agent which we will do it to the best of our ability while we 
take care of the No. 1 issue, which is safety and maximum 
protection to the public.
    The communities, States, the environmental corporations are 
all stakeholders and play a very significant part in this 
program. All stakeholders share the same mission of safe 
destruction. They somehow differ as to the best course of 
achieving this, and we heard some of this in prior testimony. 
However, the goal of the program continues to be integration of 
every approach that we feel is safe in destroying the 
stockpile. Again, striving for maximum protection.
    Members of the community surrounding the Umatilla Army 
Depot have long supported the chem demil program. Their 
involvement has been critical, and we thank them for that.
    As we said earlier, these weapons were not put here to 
defend Oregon nor Umatilla. They were put here to defend the 
Nation, and the Nation owes them a debt of gratitude for taking 
care of that. The program's mission, objectives, and timelines 
are clearly established by U.S. law and international treaty, 
mandating the destruction of the entire stockpile by 2007. 
Absent a change in the law, we believe we can finish this 
program on time.
    In summary, the chem demil program is moving forward with a 
renewed focus and momentum. The studies and scrutiny of the 
past couple of years have provided a necessary examination of 
our focus. Our work toward implementing change in reaching our 
objectives is fueling that momentum. The momentum is very 
important to us in light of the treaty, in light of the timing 
that we have to achieve at this point.
    The issue of impact funding has come up numerous times 
here. We've been working very hard over the last few years 
trying to determine what the position on impact funding is. To 
date we have been unable to find any legal authority for us to 
provide impact funding. We have gone through general counsel, 
we have gone through the various legal offices, the Office of 
Secretary of Defense and the Secretary of the Army. And at this 
point there is no legal basis for the Department to pay under, 
and the Office of General Counsel continues to work with any 
community that wants to work with them.
    I do have one page that I can either read or put into the 
record later during Q and A that talks about the position, the 
general counsel's position on impact funding and on the Tooele 
situation which was mentioned.
    Mr. Walden. I think it's fine if you want to submit them 
for the record, and perhaps give us copies, as well.
    Mr. Prociv. All right.
    Mr. Horn. Do have copies with you?
    Mr. Prociv. Yes. We can manufacture a few more if you need.
    Therefore, the continued commitment, full support of this 
program will allow us to complete our mission of destroying the 
U.S. chemical weapons and munitions and related material while 
ensuring the safety and protection of the communities 
surrounding the stockpile, the demilitarization work force and 
the environment.
    I also want to thank you for your support for restoring our 
budget and keeping it up to the levels that we can achieve our 
goals. Thank you very much.
    Mr. Walden. Thank you, Doctor, and without objection, your 
comments and your full testimony and the white paper you 
referenced will be entered into the official record of the 
subcommittee.
    Mr. Prociv. Thank you.
    [The prepared statement of Mr. Prociv follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.033
    
    [GRAPHIC] [TIFF OMITTED] T4491.034
    
    [GRAPHIC] [TIFF OMITTED] T4491.035
    
    [GRAPHIC] [TIFF OMITTED] T4491.036
    
    Mr. Walden. Mr. Bacon.

   STATEMENT OF JAMES L. BACON, PROGRAM MANAGER FOR CHEMICAL 
            DEMILITARIZATION, DEPARTMENT OF THE ARMY

    Mr. Bacon. Chairman Horn, Mr. Walden----
    Mr. Walden. You may want to get that, if it is possible, a 
little closer to your mouth. You have to work these rather 
closely. When we are done, you can do radio.
    Mr. Bacon. Thank you. Chairman Horn, Mr. Walden, chairman 
of the committee, good morning. I am pleased to be here this 
morning in the great State of Oregon to represent the Chemical 
Demilitarization Program. I want also to thank the citizens of 
Oregon and Morrow County and Umatilla County and the 
surrounding areas for their longstanding support to the Army 
and particularly to the Umatilla Chemical Depot.
    In my role as program manager, I am directly responsible 
for the execution of the destruction of this Nation's chemical 
weapons stockpile, as well as the non-stockpile material that 
Mr. Prociv mentioned.
    To accomplish this mission, I oversee three separate 
programs; the chemical stockpile disposal program, the 31,000 
tons, to include alternative technology sites in Maryland and 
Indiana; the non-stockpile project that Dr. Prociv referred to; 
and also support the Russian Federation in their destruction of 
their chemical weapon stockpile called the Cooperative Threat 
Reduction Program, and there we are in the process of building 
a pilot facility to assist the Russians. All of these are under 
my purview.
    As Dr. Prociv noted, this program is not new. We have had 
these projects in place for a number of years and they have 
positioned the United States as the world leader in chemical 
warfare material destruction. In fact, we have surpassed the 
first destruction milestone established by the chemical weapons 
convention, and are working to stay on track to meet or exceed 
the next two milestones of 20 percent and 45 percent complete, 
established for the years 2002 and 2004 respectively.
    Dr. Prociv also mentioned that the business of disposing of 
this Nation's chemical weapons stockpile has received 
significant, and unfortunately sometimes not always favorable 
attention, but that our successes have been also overshadowed 
at times. But this morning I'd like to shed some light on some 
of those successes in the status of the program.
    First, we are getting the job done and doing it safely and 
doing it well. By operating the two facilities at Johnston 
Island in the Pacific and Tooele, UT, over the last 3 years, 
these two programs have reduced the weapons by over 4,000 tons. 
And our rate of disposal is going to increase dramatically 
within the next 3 to 4 years, as we bring on the facilities 
currently under construction here in Umatilla, in Alabama and 
in Arkansas; and also bringing on pilot facilities with the 
alternative technologies in Indiana and Maryland. That is 90 
percent of our stockpile destruction well underway.
    And while we're working on these five additional sites, 
we're working on a plan of action to close the Johnston Atoll 
facility. And that is a significant milestone, provides the 
pioneering efforts for not only the Johnston Atoll facility but 
all the followon facilities, including here at Umatilla. This 
facility provides us an excellent opportunity to create a model 
for closure--the first time it's ever been done. And we will 
apply that to the followon facilities. In achieving these 
disposal results that I mentioned, we have not sacrificed 
either the health of the environment or the safety of our 
workers and the public. The Johnston Atoll chemical agent 
disposal facility coexists with the national wildlife refuge on 
Johnston Atoll, and we are partnering there with the U.S. Fish 
and Wildlife Service to assure the protection of the Atoll's 
unique wildlife and natural environment.
    At the Tooele chemical agent disposal facility, which is 
our first facility in the Continental United States, we are 
celebrating our third anniversary of safe operations, and a 
significant milestone of 50 percent of the nerve agent GB, or 
sarin, that is stored there has been destroyed. To reach such 
milestones, we have had to take this program from an initial 
research and development phase to actual operations and 
maintenance. A process that, I would admit, has been extremely 
complex in scope.
    To establish the mature program that we have today, we 
engage in a constant assessment of our approach, continually 
seeking out the best practices necessary to accomplish the 
mission safely, cost effectively, and within the timeframes set 
by the international treaty. We perform this assessment at both 
technical and programmatic levels.
    Through our lessons learned program we have been able to 
capture and share the technical history and the problems that 
we've uncovered. This enables the programs that we're 
installing today to build on these past successes. Streamlining 
the environmental processes has resulted in successful and 
timely permit issue resolution in the States where we have 
chemical weapons stored and will be building disposal plants.
    Through an independent assessment of our program's cost and 
scheduled risk, we were able to identify areas where proactive 
changes were needed and in fact which we have now instituted 
and are paying significant dividends. We are continuing to 
review our ongoing management practices, look at ways to 
implement best business practices within our current management 
and budget framework.
    And through all of these ongoing evaluations, we are 
developing approaches that will meet our future challenges and 
enable us to overcome the obstacles of the past. One challenge 
in particular has been the need to communicate effectively and 
meaningfully with our stakeholders, particularly those citizens 
living in the communities surrounding our stockpile locations. 
Our efforts to identify and address community concerns are an 
integral part of the PMCD's missions.
    Key actions to date include opening and operating outreach 
offices in each of the stockpile communities, upgrading our 
publicly accessible website, and planning and conducting 
comprehensive surveys. This survey will provide us not only 
with the information on how we're doing with public 
involvement, but also with information on the path we need to 
take as we move forward. I cannot stress enough how important 
it has been to the program to have the people on the ground in 
each of the site communities speaking with, listening to, and 
receiving feedback about our mission of safe and effective 
destruction of the stockpile that is stored here and elsewhere.
    In the process of communicating with our stakeholders, we 
have looked closely at how we are doing, particularly in terms 
of cost and schedule, and most importantly, in those 
nonnegotiable areas of safety and protection of the 
environment. It is important, though, to understand that the 
life cycle cost figures are not just for research and 
development, or acquisition, or operations and maintenance. Our 
budget needs to cover everything from community health studies, 
cost of partnering with organizations such as FEMA for CSEPP, 
to cooperative agreements with the States.
    And because of these many funding commitments, I'm 
especially concerned about the impacts that budget cuts may 
impose. For example, recent budget analysis by my resource 
management office personnel have shown that the proposed budget 
cuts will adversely affect all of our demil program sites, 
including the one here in Oregon.
    Our analysis clearly indicates a significant budget 
reduction in fiscal year 2000 could create delays in the 
disposal of our stockpiles as well as the non-stockpile 
material; and result in the breach of the Chemical Weapons 
Convention date of April 2007; but more importantly it could 
increase the cumulative risk to the public from the continued 
storage of these weapons; and significantly increase the 
program life cycle cost estimate by more than $400 million.
    For the program manager, the overall driver for 
establishing our disposal schedule, is the reduction of the 
cumulative risk to the public from an extended storage of the 
stockpile. A secondary driver is meeting the chemical weapons 
convention deadline. My goal is to reduce this risk at all 
sites; striving to meet the treaty deadline will also allow us 
to accomplish that goal.
    The particular demands of our safety culture dictate we 
approach disposal with extreme care. As Dr. Prociv mentioned, 
this is a 15 year old program and many of those 15 years have 
been spent testing and evaluating safe disposal technologies 
and processes. When we factor in the work of our colleagues 
that are safely operating the chemical agent munitions disposal 
system, at the Deseret Chemical Depot in Utah for 20 years, it 
is clear our approach to chemical weapons elimination has been 
delivered with safety always the priority.
    As a citizen and a resident living near one of the nine 
stockpile locations, I would not want our program's history to 
look any different. I'm committed to a future that is built on 
our record of making sure we have it right before we move 
forward. And this approach has served us well. We're now 
positioned to accelerate the disposal schedule in the coming 
years, based on this history of demonstration.
    As program manager, I feel confident about our capability 
to operate multiple facilities simultaneously, built on the 
solid and safe foundation that we are standing on here today.
    I want to thank you for this opportunity to highlight these 
successes. I would like to reiterate my personal commitment and 
that of our fine work force to continue operating in a fiscally 
responsible
manner, to use the best proven technologies, to eliminate the 
risk posed to our communities, while being protective of public 
health and the environment. My staff and I stand ready to 
provide you with any additional information you desire.
    [The prepared statement of Mr. Bacon follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.037
    
    [GRAPHIC] [TIFF OMITTED] T4491.038
    
    [GRAPHIC] [TIFF OMITTED] T4491.039
    
    Mr. Walden. Thank you very much, Mr. Bacon.
    Let's hear now from Mr. David de Courcy, Federal Emergency 
Management Agency. Good morning and welcome.

   STATEMENT OF DAVID de COURCY, REGION 10 DIRECTOR, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. de Courcy. Good morning. Mr. Chairman, members of the 
subcommittee, I am the Regional Director for Region 10 of the 
Federal Emergency Management Agency. Region 10 for your 
information covers Washington, Oregon, Idaho, and Alaska.
    I appreciate the opportunity to appear before you today to 
discuss some of the key elements of the CSEPP program relating 
to the safety of communities around the Umatilla Chemical 
Depot.
    FEMA has provided the committee with a written statement by 
Russell Salter, Director of Chemical and Radiological 
Preparedness Division discussing the CSEPP program from a 
national perceptive.
    My intent here is to give you a brief overview of where we 
are today in Oregon, and to highlight the significant progress 
that has recently been made through the combined efforts of all 
of the governmental entities involved in the program; FEMA, the 
Army, the State of Oregon, Umatilla and Morrow Counties, and 
the local jurisdictions.
    One preliminary comment. We are all aware that this has 
been and remains a challenging program. It involves all of the 
different levels of government that exist in our democratic 
system; Federal, State, and local. It involves different 
organizations within each of those governmental units. All of 
these entities have different cultures, different ways of doing 
business, and in some cases, different ideas about how best to 
implement this program. But there is one constant for all of 
us: To protect the public.
    And so, despite occasional differences of opinion and even 
some quite public controversies, the collective commitment to 
that goal by everyone involved in the CSEPP program has made 
the communities around the Umatilla Depot much safer than they 
were before, not only from a chemical weapons accident, but 
from a hazardous materials event on the roads or rails or from 
a natural disaster such as a flood or fire.
    We aren't done with the job yet, but let me in my brief 
appearance today inventory some of the things that have been 
accomplished through the CSEPP program.
    Emergency operation centers. Both Umatilla and Morrow 
Counties have, or soon will have, first class emergency 
operations centers. The Umatilla County CSEPP staff has 
recently moved into a new state-of-the-art facility in 
Pendleton, built in conjunction with the county's Justice 
Center. Morrow County is in the final stages of a renovation 
project that will be completed in October. In the meantime, its 
EOC remains fully operational.
    Sirens. The State has installed and tested 35 outdoor 
sirens in the two counties, as well as 7 more on the Depot 
itself. All are working and are tested once a month. Because of 
population growth, FEMA is funding six additional sirens.
    Highway reader boards. These are designed to help direct 
traffic if an evacuation is necessary. Nine reader boards have 
been installed. One is not working because of vandalism and is 
being moved to a safer and better location.
    Tone alert radios [TARs]. These special radios are 
currently being lab and field tested, and about 17,000 of them 
will be distributed in every home and business near the Depot. 
They allow emergency managers to alert people of a problem, and 
can transmit voice instructions regarding appropriate 
protective action. We expect delivery of the radios late this 
year or early in 2000, with distribution to the public being 
complete by next May.
    I would note that we are aware that some elements of the 
communications infrastructure that supports the tone alert 
radios are not yet working properly. The counties are working 
with the system contractor to correct those problems.
    Alert notification. The Depot is now able to notify all 
State and county emergency operations centers of a chemical 
event via a dedicated telephone conference bridge. In addition, 
a computer-based emergency management information system is 
able to simultaneously notify all emergency operation centers 
of an incident, reveal the level of alert and graphically show 
the direction of a chemical plume.
    Over-pressurization. This allows people to shelter-in-
place. As was discussed earlier, it provides an airtight 
enclosure, which keeps contaminated air outside using 
weatherization techniques and air pumps; 11 schools in Umatilla 
and Morrow Counties have working systems which presently 
protect 5,500 children and teachers. An additional system is 
being built into the new high school in Umatilla. Food 
supplies, blankets, sleeping pads, and items for special needs 
children have been distributed to Morrow County, and Umatilla's 
will be distributed next month as school begins.
    Good Shepherd Hospital over-pressurization. This project is 
going to bid this month and should be completed by the fall of 
2000. It had been delayed for some time by some design issues 
but those issues have now been resolved.
    Good Samaritan Nursing Home over-pressurization. The design 
has been approved for this project and a contractor has been 
selected, construction should begin later this month.
    Hermiston Safety Center. It is also in the design phase for 
over-pressurization and should be completed next year.
    Transportation. As was discussed previously during an 
earlier panel, some schools have chosen to evacuate because of 
their distance from the Depot rather than to do over-
pressurization. A bus has been provided to the city of Echo to 
evacuate school children. And we are working with the 
superintendent of schools in Boardman, Bruce Anderson, to 
provide transportation for the Boardman children as well. I 
received a letter from Mr. Anderson on Friday which I think was 
a very promising proposal, and I am confident we will be able 
to resolve this issue in the near future.
    Shelter-in-place kits. Each household in the areas closest 
to the Depot will receive a shelter-in-place kit which will 
allow residents to prepare an airtight safe room in their 
homes. Morrow County has already distributed about half of its 
needed kits.
    Umatilla County is currently assembling the 13,000 kits for 
its residents and plans to distribute them by mail in October.
    Responder protection. Several projects designed to protect 
first responders in responding to a chemical incident have been 
a significant part of recent CSEPP efforts in Oregon.
    Monitoring equipment. This allows response personnel to 
detect the presence of chemical agents. Under a pilot project 
developed jointly by FEMA, the Army, the State, the counties, 
and the local jurisdictions, 20 improved chemical agent 
monitors, or ICAMs, were provided by the Army in March. The 
Depot is providing training to the first responders on ICAM 
use.
    Personal protective equipment. 300 Level C protective 
units, overgarments, boots and masks have been provided to be 
used by first responders. Training and fit testing for this 
equipment is well underway.
    Decontamination trailers, also referenced briefly in 
earlier testimony. Four trailers are in-place in the counties. 
These will be deployed to specific sites to decontaminate 
persons suspected to be contaminated. Each units have showers, 
water supplies and other specialized equipment. Each trailer 
has its own tow vehicle as well. Three of these tow vehicles 
have been delivered. One is being fitted with special 
equipment.
    Public information and education. Public outreach is a 
critical aspect of emergency preparedness generally. This is 
especially so in the CSEPP program. We are engaged in a very 
active public education effort involving FEMA, the Army, the 
State, including Office of Emergency Management, the State 
Department of Health and the State Department of Environmental 
Quality, and the counties. These efforts focus on communicating 
with the public about what to do in the event of an emergency. 
A very aggressive plan is now under consideration that would 
use commercial advertising to increase public awareness and to 
approve citizens' ability to protect themselves.
    In closing, I want to emphasize that we are moving forward 
with a collaborative approach to the management of the CSEPP 
program in Oregon. In March, we implemented what we called our 
Unified Management Team, which consists of representatives of 
FEMA, the Army, the State and each county. This team meets 
weekly to identify issues, resolve problems and monitor 
progress. It brings together key players on a regular basis, 
has clarified responsibilities, and has helped ensure that 
issues are addressed in a timely fashion. It also brings 
closure to nagging issues that in the past sometimes took on 
undue significance.
    In addition to the weekly team meetings, we also have a 
thorough briefing every 4 to 6 weeks for a broad array of local 
officials where progress is reported and issues are discussed 
in an open forum. Local attendees include the county 
commissioners, mayors, first responders, and Tribal 
representation.
    This entire unified management team process has greatly 
improved communication among everyone involved in the program, 
has helped avoid misunderstandings and potential controversies, 
and ultimately, has greatly enhanced the pace of progress in 
protecting the public. Clearly, it has been instrumental in 
bringing to
closure many of the items that I have discussed today. I am 
confident that it will continue to provide a strong foundation 
as we move forward with the CSEPP program here in Oregon.
    Thank you.
    [The prepared statement of Mr. de Courcy follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.040
    
    [GRAPHIC] [TIFF OMITTED] T4491.041
    
    [GRAPHIC] [TIFF OMITTED] T4491.042
    
    [GRAPHIC] [TIFF OMITTED] T4491.043
    
    [GRAPHIC] [TIFF OMITTED] T4491.044
    
    Mr. Walden. Thank you very much. Let's go now to our final 
witness in this panel, Myra Lee, who is the director of Oregon 
Emergency Management Division.

STATEMENT OF MYRA T. LEE, DIRECTOR, OREGON EMERGENCY MANAGEMENT

    Ms. Lee. Thank you, Congressman Walden. Thank you, 
Congressman Horn.
    My name is Myra Thompson Lee. I am the director of the 
Oregon Emergency Management. I had submitted information for 
the record and will try to summarize briefly without repeating 
a lot of everything we have already heard. I keep marking 
things out here as we go on.
    Oregon has been involved in the CSEPP program from the 
beginning. In 1989 we received the first amount of funding that 
was available. It was $100,000. A full 10 years have passed 
since that time, and we have seen great strides in preparedness 
capability of both Morrow and Umatilla Counties and the State 
of Oregon. We have the most advanced alert notification system 
in the State in this region. It includes the system of high 
power sirens to alert citizens and agricultural workers who are 
outside, highway reader boards to help direct traffic in an 
emergency, and soon under the counties oversight it will 
include individual tone alert radios for every inhabited 
building in the immediate response zone.
    You have already heard about the over-pressurization and 
the supplies for the schools, and about the buses. In regard to 
training, by October 85 percent of the first responders, 
medical staff and other emergency workers will be trained in 
chemical response. The training is slow and part of that is 
simply because of the schedules. We have to meet the schedules 
of first responders to be able to get the training to them in a 
way and at a time that meets their work requirements.
    Operational needs have been developed through 
multijurisdictional planning and reflected in the budget 
requests that are submitted to FEMA and the Army, and policy 
issues are addressed by joint meetings of the group that 
Director de Courcy described, which includes the local 
officials, Tribal, State and Federal executive management 
representatives. Still we do have a long way to go. But at this 
critical time we are seeing reduced funding for some very 
important projects. One of our concerns has been and continues 
to be the funding strategy developed by the Defense Department 
called life cycle cost estimates [LCCE]. The intent was to 
project CSEPP program and equipment cost to the year 2004 and 
to hold spending to an agreed upon level. However, the cost 
figures were reduced by the Army, the cost figures submitted by 
the counties and the State, were reduced by the Army to meet 
the demand to cut costs by the Defense Acquisition Board of the 
DOD.
    Hence, the LCCE since its inception has not adequately 
provided for or been adjusted to account for medical costs, the 
normal year to year growth of the program at the State and 
local levels, nor the costs of the certification process that 
must demonstrate we have met the prescribed level of emergency 
preparedness outlined in the final operating permit.
    For instance, we have repeatedly requested to have the 
medical preparedness component included in the LCCE. This has 
not been done. The result has been that the medical 
preparedness costs have supplanted other activities that also 
needed to be done.
    Training is another area. Training needs are especially 
difficult. Many people must take work or family time to train. 
Many of them are volunteers, and there are no funds to cover 
the additional costs of public safety infrastructure in the 
counties. Issues related to the LCCE have delayed progress and 
budget cuts would simply make this worse. We request that the 
LCCE be addressed--readdressed, and that it be allowed to 
reflect actual needs at every level. The facility permit issued 
by the State of Oregon requires that community emergency 
preparedness be adequate prior to the start of facility 
operations. The Governor's signature is required on this 
document to ensure that an adequate level of emergency 
preparedness exists.
    The communities must be able to provide warning to citizens 
and an adequate response to a chemical emergency. Protective 
measures for our citizens and emergency workers must be 
adequate and medical services and equipment must be available. 
There are many other safeguards that must be established before 
the State will certify community readiness.
    That is what the certification process is all about. The 
importance of this certification process to the counties and 
the State cannot be overemphasized. It not only assures an 
adequate level of emergency preparedness but it is a good faith 
effort to achieve what is needed with respect to the safety of 
our citizens and the protection of our environment.
    In closing, let me say that we do appreciate you being 
here. There are many things that you need to consider in this 
process. But the bottom line in CSEPP is always and has been 
the protection of the public, that is my goal. My staff live 
here. I come from a rural community. And I understand the 
issues that this type of a situation represent, and from that 
local perspective. Thank you very much for your time, and I'll 
be glad to answer any questions.
    Mr. Walden. Thank you, Ms. Lee. We appreciate it.
    [The prepared statement of Ms. Lee follows:]
    [GRAPHIC] [TIFF OMITTED] T4491.045
    
    [GRAPHIC] [TIFF OMITTED] T4491.046
    
    [GRAPHIC] [TIFF OMITTED] T4491.047
    
    [GRAPHIC] [TIFF OMITTED] T4491.048
    
    [GRAPHIC] [TIFF OMITTED] T4491.049
    
    [GRAPHIC] [TIFF OMITTED] T4491.050
    
    [GRAPHIC] [TIFF OMITTED] T4491.051
    
    [GRAPHIC] [TIFF OMITTED] T4491.052
    
    [GRAPHIC] [TIFF OMITTED] T4491.053
    
    [GRAPHIC] [TIFF OMITTED] T4491.054
    
    Mr. Walden. We will go right into questions now.
    Mr. Prociv, I have a question regarding the funding issue. 
My understanding is for fiscal year 1999 the appropriation for 
chemical weapons was $780 million for the Army. The recommended 
committee level out of the House was $781, which is $388 
million below what the President's budget requested, which is 
designed to deal with the ramp-up in costs.
    But I want to read from the committee report and have you 
maybe address the concern that they raised when they made this 
reduction.
    They say the committee remains concerned over the extremely 
slow obligation expenditure rates for the chemical munitions 
destruction program. Recently the committee has learned that 
its concerns are valid through an internal DOD comptroller 
memorandum. The committee has learned the chemical agents 
munitions program uses unique and questionable budget execution 
actions. Not only are these large unexpended and unobligated 
balances of prior year funds, but the budget request is $388 
million higher than last year's appropriated amount.
    Since not only the committee but also the Office of 
Secretary of Defense comptroller staff cannot determine the 
validity of the program's prior obligations, the committee 
recommended that the program be held at last year's level.
    I understand you may have some information to respond to 
what the committee was faced with when they made their 
decision.
    Mr. Prociv. I will be pleased to respond to that. The memo 
that they referred to was a preliminary memo that was sent from 
a budget analyst to the comptroller. The issue was not slow 
obligation rates but slow disbursement rates.
    And this was a concern, because our program is very much 
different than most other DOD programs. There were a number of 
concerns stressed in that.
    Subsequently, the comptroller established another committee 
to take a look at the low obligation rates, and there is a 
report, which we will be happy to provide you with that report. 
The report basically takes each of the allegations and finds 
them to be essentially not correct. In deeper detail, it 
exonerated us from those accusations.
    Also, as a result, the GAO came and did a short preliminary 
study and they also came to the same conclusions that the 
process was in fact correct and there was no mismanagement of 
the budget.
    The reason this budget is very different than most defense 
budgets, the difference between obligation and disbursement 
rates are a little bit larger than normal, is that this program 
is driven by permits. We, because of the way we budget money 
and manage it, have to essentially obligate the dollars and 
then wait for a permit.
    Very often we wait a little longer than we had anticipated. 
So most of the concerns on disbursements were based around that 
kind of an obligation rate.
    The two studies that have been done essentially exonerated 
us and point to good management practice.
    Mr. Walden. And at this point I would like to have those 
entered in the record of the committee hearing process, if you 
have them.
    Mr. Prociv. I would be pleased to.
    Mr. Walden. Without objection, Mr. Chairman, we will do 
that. Let me go on to ask you another question.
    The letter you mentioned, or the white paper you mentioned 
about impact aid from your general counsel's office, which we 
put in the record, what's the date that that report was 
created?
    Mr. Prociv. The letter that they gave me is dated March 26, 
1999.
    Mr. Walden. So March 1999.
    Mr. Prociv. That's correct. The information paper on Tooele 
is June 1, 1999. These are the two that I will submit.
    Mr. Walden. Have you shared, obviously you've heard how 
important this impact aid issue is to me and to members of this 
community. Have you shared those letters with the community 
leaders yet?
    Mr. Prociv. No, we did not. We have had the general counsel 
come to some of the communities and explain the position, 
explain the Tooele settlement. We have been very active in 
keeping the communities informed of what our position is. So we 
have done that wherever we have been invited to.
    Mr. Walden. If possible, I would recommend you share that, 
those documents, with the community leaders here. I think that 
could be very helpful.
    Let me ask you this, too. From what I hear you say, you 
don't feel like there's a statutory authority to provide the 
impact aid.
    Does the administration intend to pursue that authority, or 
support that authority if somebody else pursues it 
legislatively? Can you speak to that issue?
    Mr. Prociv. It's an issue of both authority and budget. The 
issue of the legislative authority basically is that we have a 
budget that has been appropriated for certain series of actions 
we have to achieve, and the impact aid is not one of those 
actions, and if so, we would need some relief in that case.
    Of course, these are not insignificant sums of money, when 
you start to add up the other communities that have also 
approached us. Facing the kind of cuts that we are facing, we 
don't even have the kind of money that we can start to put out, 
even if we had the legislative authority.
    So at this point it would have to be both the authority and 
some form of appropriation.
    Mr. Walden. I understand that. I guess, you know, limited 
authority and budget caps, and all of that as well. But I guess 
the point is, we're asking the local taxpayers to absorb the 
hit, as well, and they are not getting compensation.
    So I guess, I didn't hear you say, can you speak in terms 
of whether you would support that authority? I mean, we have to 
have the authorization before we can do it apparently.
    Mr. Prociv. This is a congressional program. We will do 
what we need to do to get this program going. If Congress wants 
us to do this, we certainly will do this.
    Mr. Walden. Let me go--I have a question I guess for Mr. de 
Courcy. You mentioned that there are 300 decontamination suits, 
I believe? That may not be the right term. Hazardous suits. How 
many volunteers and professional personnel? I mean, how many 
people are out there that would be involved if there were a 
leak today?
    Mr. de Courcy. In terms of first response personnel?
    Mr. Walden. Right.
    Mr. de Courcy. I am sorry. I don't have that figure.
    Mr. Walden. Does somebody have that? Is it Mr. Stearns?
    Mr. Horn. We need you to speak louder.
    Mr. de Courcy. Perhaps Mr. Stearns would know.
    Mr. Walden. Mr. Stearns, can you tell us how many first 
responders there are in the area?
    Mr. Stearns. I can't tell you exactly, but there would be 
approximately 50.
    Mr. Walden. About 50 first responders. OK.
    Mr. Stearns. I must qualify that. That's on the fire and 
medical side. Police is another issue. I don't know how many 
would be there.
    Mr. Walden. How many would need to be in these suits, I 
guess is the point I am getting at.
    Mr. Stearns. I can't speak for police. I don't know what 
their numbers are going to be. That is certainly going to be an 
impact. From the fire and ambulance, 50 would be my guess.
    Mr. Walden. I guess the point I'm trying to get at, is 300 
suits adequate, and over what duration? Are these suits one 
time use and then you have to destroy them?
    Mr. de Courcy. I think I would respond by saying, this 
issue to my understanding has been worked at the local, State 
and Federal level, in a joint effort, and I can't address the 
specific operational details because I typically don't get 
involved at that level.
    As I said, this was worked in a collaborative fashion, and 
I guess I would have to make the assumption it was based on 
input that was received from the State and local officials, and 
if we have it wrong, we would be glad to revisit it.
    Mr. Walden. I wasn't necessarily saying it was wrong. I was 
just curious to see, is 300 adequate? I mean, if you have 500 
people responding? We are trying to sort those kinds of things 
out.
    Mr. de Courcy. As I say, there was significant local 
involvement in the background to achieving that capability.
    Mr. Walden. All right. Thank you. Mr. Chairman, do you want 
to----
    Mr. Horn. Yes. Let me raise a few questions panel one has 
discussed that I would like your response to.
    In Judge Terry Tallman's testimony, he says the following. 
``In 1996 one Army official told us, quote, there is a way for 
you to get money, but I can't tell you how, unquote.'' Any 
thoughts on that? Are we playing jeopardy, or what?
    Mr. Prociv. No. I'm somewhat distressed that an Army 
official would make that kind of a statement. We have gone 
through--I don't know who that official was or may have been. 
We have gone through great lengths with our Office of General 
Counsel, and we cannot find that means, we do not have the 
statutory authority. That has been told to us numerous times.
    Mr. Horn. I'm reminded, you're not the only agency where 
something like that happens. I'm reminded that about 15, 10 or 
15 years ago one of the most distinguished professors of cancer 
research in America at UCLA, University of California Los 
Angeles, wanted to do research on breast cancer, and the NIH 
told him, well, we can't give you a grant because you've never 
had a grant from us.
    And that reminded me that maybe that Army official was over 
at NIH at that time.
    But the result of that was my good friend Jack Murtha, the 
ranking Democrat on Defense Appropriations, poured a few 
hundred million dollars into the Pentagon budgets to deal with 
breast cancer there and prostate cancer later. So some good 
came out of that idiotic statement made by NIH at the time.
    Let me note here, it says Judge Tallman, at our request the 
1997 Oregon Legislature unanimously approved a law that allows 
counties to charge a fee for storage and handling of the waste. 
The Army refused to comply with the law, citing Federal 
sovereignty, which is ironic since a similar law was honored in 
Tooele County, UT. In essence, the Army claims to be exempt 
from all of the traditional tools for taxing growth to 
underwrite community services and infrastructure such as roads, 
sewers, water systems and schools.
    How come Utah gets a good deal and Eastern Oregon doesn't?
    Mr. Prociv. I am going to have to read some segments from 
this white paper because I am not an attorney and they 
constantly accuse me----
    Mr. Horn. The first part of the statement is a great credit 
to you.
    Mr. Prociv. Thank you. One of the statements made here is 
that State statutes generally do not constitute a statutory 
basis for the Army to make payments to the State of Oregon. The 
Federal system of government is immune from paying State taxes 
and fees.
    The Federal Government has explicitly waived its 
sovereignty in only a few limited cases. One of those cases is 
the Resource Conservation and Recovery Act, and that's with 
regards to a narrow range of hazardous waste fees, and that's 
section 42 U.S. Code 6961, if you want it for the record.
    The Utah situation, the bottom line in Utah, that in 1996 
Tooele County agreed not to seek taxes nor mitigation fees 
against the Army and its contractor operating the local Tooele 
chemical agent disposal facility in return for a lump sum 
payment. There was a $400,000 lump sum payment, and some later 
payments of $970.37 per ton. I don't----
    Mr. Horn. Were they preparing to sue the Army?
    Mr. Prociv. Yes. The Army originally, when the Tooele 
County proposed the fee and the tax, the Army originally 
opposed the payment of any fee and tax. The Army was ready to 
litigate on the grounds that the taxes are illegally levied 
against the U.S. Government rather than the contractor, and the 
fee was not clearly tied to Utah's hazardous waste program nor 
did the facility fall within the physical zone where the 
payment was required.
    The Army relented because the fee was already being paid by 
three hazardous waste facilities in the adjacent counties. The 
tax subsequently was assessed against the contractor and there 
was substantial risk that a court would have ruled the tax 
legal.
    So in turn the financial terms reached were more favorable 
to the Army than the burden that would have been imposed by 
taxes and fees proposed by the county.
    The county sought to recover $3.3 million per year in taxes 
beginning in 1994 and had assessed a $6.6 million annual fee in 
1993. By settling in this manner the Army was convinced that 
because there were existing ordinances in three adjacent 
counties that were for incinerators and they were paying fees, 
if the Army went into litigation, they would lose.
    So this kind of a settlement was based on the intent to 
litigate.
    Mr. Horn. Well, I know you can't do it, but would you 
advise those in Eastern Oregon to file a suit against the Army 
so they can get $400,000?
    Mr. Prociv. I don't think advisory is in my job 
description. I apologize, sir.
    Mr. Horn. As I said, I don't think you can answer that.
    Mr. Prociv. The only thing I might add to that is that 
under RCRA, it does require that there are preexisting statutes 
already in existence, and it does not allow you to set them up 
just to go after government----
    Mr. Horn. Why don't you explain what RCRA is.
    Mr. Prociv. Resource Conservation Recovery Act.
    Mr. Horn. And you did cite that earlier.
    Mr. Prociv. That's right.
    Mr. Horn. And is that how Utah was able to get it?
    Mr. Prociv. That is the only place where the government has 
waived sovereign immunity, is under the Resource Conservation 
Recovery Conservation Act, where they will actually pay 
applicable fees, as long as they are not discriminatory, and 
they are applied equally to all industries.
    Mr. Horn. It seems they have been very discriminatory, 
since Utah has the money and Oregon doesn't.
    Mr. Prociv. The way the lawyers have described it to me is 
that the Utah situation was very much different because of the 
existing rules, local county ordinances, because they were 
companies that were being already taxed that way. And so 
because of that presence, they were willing then to go into 
negotiations with the Tooele County community. That's the limit 
of my knowledge as to why this was done.
    Mr. Horn. So you're saying that Utah had already taxed the 
various contractors?
    Mr. Prociv. That's correct, sir.
    Mr. Horn. And you're saying Oregon did not tax those?
    Mr. Prociv. We know of no other community that has these 
kind of ordinances, where we have chemical plants.
    Mr. Horn. Maybe some of the Oregon officials can educate 
me. Do we have that on the books in Oregon? If not, they can at 
the next meeting put it on the books. But who's the 
knowledgeable one here? Why don't you introduce yourself for 
the record again and position so our faithful reporter will 
have it.
    Mr. Walden. And use a microphone, too.
    Mr. Myers. Do you want to swear me in?
    Mr. Horn. You stood up, didn't you?
    Mr. Myers. No.
    Mr. Horn. We will give you a fast swear in.
    Mr. Myers. I swear to tell the truth, the whole truth and 
nothing but the truth, so help me God.
    Mr. Walden. You're in. He's a lawyer, too.
    Mr. Myers. Mr. Chairman, I am Bill Myers, I am an attorney 
with Holland & Hart, and I am providing some counsel to Morrow 
County.
    The county itself has an ordinance in place that's been in 
place for some time regarding hazardous waste management.
    The State of Oregon has passed a statute which is currently 
on the books allowing for the assessment of fees for the 
storage and handling and impact created by the situation we 
have here. So the statutes and the county ordinances are on the 
books.
    Mr. Horn. So you see no difference between the evidence at 
the time of the filing of Utah versus Oregon that could do 
that, then, just as well?
    Mr. Myers. No principled difference.
    Mr. Horn. Is that the Holland that was Spencer Holland of 
Florida?
    Mr. Myers. No. That's the Holland of Denver.
    Mr. Horn. OK. Because he was a wonderful old gentleman. I 
won't tell my jokes on Holland, then. Let me move, if I might, 
then, to the general environmental programs of the Department 
of Defense. Because there's no question when you close this 
facility here, and it's already been decided that it's going to 
be closed, that they are going to have tremendous environmental 
things, if they want to bring industry in, if they ever want to 
clean it up so they can put a school on that side of town.
    Defense has that money. And they're supposed to give it to 
the sort of aggrieved city in which that property exists. Which 
is either city and county or both, and it certainly is in the 
State of Oregon.
    So, what can you tell us on what the Department of Defense 
to whom we give bills, and they've got hundreds of millions in 
their environmental accounts, has the Army ever gone to them 
and said, hey, folks, we do this in other places, and said, 
where's the money?
    Mr. Prociv. Congressman, I would hope you would let me take 
this for the record. This is a little bit outside my authority 
area. I am responsible for the chemical demil program. And the 
environmental issues and the BRAC issues and such are handled 
by people that I don't deal with very often.
    Mr. Horn. Well, do the BRAC people in the Department of 
Defense ever speak to the Army? Do they ever say, hey, you 
know, what can we do to help? We're from the government, et 
cetera?
    Mr. Prociv. I think I had better take that for the record, 
too.
    Mr. Horn. No. It just seems to me that----
    Mr. Prociv. We have had discussions with our BRAC people on 
all of these sites. And basically BRAC, when a site is declared 
a BRAC site, their activities get engaged.
    At this point we're not engaged with them for these sites.
    Mr. Horn. Well, I was pleased to note there's a task force 
here that involves State, county, city, Federal officials. Is 
that correct? I thought your testimony was very good and 
precise on those points, of what FEMA has done.
    Mr. de Courcy. Yes.
    Mr. Horn. That doesn't mean they can't do more, but it was 
a good list, an excellent list of what's been done. We need on 
the Washington side and in the military in particular, to get 
the defense and environmental both in relation to what Army, 
Navy, Air Force, Marines, they all have base closures they're 
doing, and see if the Washington end, if we can get the Federal 
agencies together.
    Mr. Prociv. Yes, sir. I'll get that for you.
    Mr. Horn. I think my colleague, the acting chairman, will 
have a few words on that subject.
    Mr. Walden. I appreciate your comments, Mr. Chairman, and I 
think you're right on target. And I found it interesting that 
the BRAC applies for job loss but not the sort of boom and bust 
problem by a job creation. Perhaps we need to change the BRAC.
    Doctor, the administration often takes positions on 
proposed legislation called ZAP. Specifically, do you know if 
the Department of Army would support impact aid in the 
development of a ZAP?
    Mr. Prociv. We have had some discussions about this. And of 
course it comes down to what the conditions would be under that 
kind of a ZAP.
    As I mentioned earlier, we get our authority from Congress, 
and if Congress wants to do something, we can do that.
    One of the biggest concerns in the Army, this being an Army 
budget, any growth, overruns, any additions, could affect the 
modernization budget. It could affect the readiness budget.
    So there is a lot of concern about how we would respond to 
a question like that. If in fact this came to us with a 
directive, fully funded, with legal authority, we would follow 
the directive.
    Mr. Walden. I guess my point is--Well, let me make two 
comments on your comment. One, we passed emergency supplemental 
to deal with some of the pay and benefit issues during the 
Kosava crisis that far exceeded the cost of Kosava to help with 
readiness.
    Two, the overall budget is a $17 billion increase this 
year.
    And so, I mean, I think we're stepping up to the plate on 
readiness. And I share your commitment toward that.
    But there does seem to be this added responsibility we need 
to address.
    I'm trying to figure out if the Army, if we move forward 
with legislation, the easiest way to kill it is a statement of 
position that says, no, we don't want to go there because we 
are afraid of this or that.
    I'm trying to find out if you can speak to that, I don't 
know.
    Mr. Prociv. I know it sounds like I'm waffling, but from 
the discussions I have had with my superiors it really depends 
on the conditions. If in fact we had the authority and the 
dollars and there was no risk to the Army's readiness or 
modernization budget, I think we would follow those directives 
very gladly.
    Mr. Walden. I would like to work with you in that area, or 
your superiors, whoever it needs to be.
    Mr. Prociv. I would be happy to.
    Mr. Walden. Thank you.
    Mr. Horn. Do we have, does the Army have a list of the 
number of accidents that have occurred within the Depot in 
terms of its own employees? Have we had situations where they 
have accidentally had to have medical----
    Mr. Prociv. Let me pass that to Mr. Bacon who is involved 
on the day-to-day operations.
    Mr. Bacon. Sir, yes, the Depot has a very active and in-
depth safety program providing assistance to the employees in a 
number of ways, and I would best believe that Colonel Woloszyn, 
the Depot Commander, in fact I should say new Depot Commander, 
is here and should address this. Tom, are you here?
    Mr. Woloszyn. Yes, sir.
    Mr. Walden. Come on up.
    Mr. Bacon. I would like to have him speak to that.
    Mr. Walden. I will swear you in as well, how is that?
    [Witness sworn.]
    Mr. Walden. Thank you.
    Mr. Horn. And could you give us your last name and rank and 
position for the record.
    Mr. Woloszyn. Yes. Lieutenant Colonel Thomas F. Woloszyn. I 
am Depot Commander currently, after 1 month. And we do have 
records of some of the problems we have had, nothing major. No 
major hospitalization in the past. Nothing certainly during my 
watch.
    Mr. Horn. Has there ever been a situation where something 
has escaped out of the facility itself into the community?
    Mr. Woloszyn. No, not in the past history. When I was 
talking about accidents, maybe a handling accident in the past. 
I've heard those, only from an anecdotal perspective.
    Mr. Horn. Well, what was the anecdote?
    Mr. Woloszyn. I mean, not the anecdote, but from a 
historical, stories you hear.
    Mr. Horn. The question is, is it apocryphal or isn't it? 
Did it ever leak out?
    Mr. Woloszyn. Oh. No. It has never leaked out of the Depot 
boundaries, that is certain. What I was speaking to is possibly 
a worker receiving a low or a small dose.
    Mr. Walden. Could you just, in a short form, tell us the 
status of these 105,000 rockets? Are the leaks predominantly 
over some fuel issues?
    Mr. Woloszyn. The issue of stability is a fuel issue, 
because they are a packaged round. You have the explosive, the 
ignitor and the propellant together with the weapon itself.
    Now, as far as the rounds themselves, we monitor them 
regularly. Certain lots we monitor on a daily continuous basis. 
Others weekly, and some rounds, being like the containerized 
rounds, quarterly.
    Mr. Horn. That's all I have on that. Go ahead. These are 
some from the audience.
    Mr. Prociv. May I just add one thing, Mr. Walden. One of my 
staff just handed me an article from the Congressional Record. 
Some people may be aware of this but I thought I would enter 
this into the record.
    Senator Smith from Oregon has in fact tried to get some 
legislation to help us out. We worked very closely with him.
    In the Congressional Record he's asking to engage in 
colloquy with the Honorable chairman, ranking member of the 
Senate Armed Services on this very subject. In the text it 
says, ``Finally, I mentioned my concerns to the Secretary of 
Defense. He expressed his willingness to work with us.''
    But I think there is action going on, you see that the 
Department is willing to engage in discussions on this, that 
we're not just a blank wall at this point. And I think this 
will result in some kind of resolution.
    Mr. Horn. So you're saying the Army will be supportive.
    Mr. Prociv. If the Secretary supported it, absolutely, and 
that's what this states.
    Mr. Walden. OK. We have some questions from the audience. 
Has the CSEPP program considered and factored in the actual 
operational problems experienced at the Army's Utah facility in 
its assessment of the emergency preparedness needs for Oregon?
    Mr. Prociv. Would you like to, Mr. de Courcy?
    Mr. de Courcy. Would you read the question again?
    Mr. Walden. Has the CSEPP program considered and factored 
in the actual operational problems being experienced at the 
Army's Utah facility in its assessment of Emergency 
Preparedness needs for Oregon?
    Mr. de Courcy. I would prefer to respond to that on the 
record, because I am not familiar with the answer to that 
question.
    Mr. Prociv. Let me add to that. I know your committee is 
often concerned about this. We have an exceptionally good 
working relationship with FEMA. That's not always the case when 
Federal agencies get together. But in this case it works very, 
very well. We attend meetings that are at a minimum quarterly, 
sometimes more often, where all of the regional people, the 
State representatives get together, and they discuss these 
problems, discuss lessons learned from one site to another, 
they trade information, and they try to integrate their 
programs as best as possible.
    So FEMA has taken the initiative. We have attended those 
meetings and I believe it's working very well.
    Mr. de Courcy. Congressman, I am not clear what the record 
was in terms of those issues, but I can tell you that there is 
a very elaborate certification process that will be undertaken 
with respect to the preparedness component of this.
    I am not sure. But to the extent that Utah has experienced 
in its preparedness issues the certification process could take 
that into consideration as we move forward.
    Mr. Walden. I think there must be some operational problems 
that have occurred in Utah. The question is, have those been 
factored in, if they were to occur here, in your planning 
process.
    Mr. de Courcy. And I don't know the answer to that.
    Mr. Walden. A followup, has the CSEPP program considered 
recent efforts--excuse me, recent reports that the chemical 
agents are more toxic than originally thought in its assessment 
of emergency preparedness needs for Oregon and they are 
referencing a NRC report on toxicity in 1997-1998.
    Mr. Prociv. Just a short answer. That report had addressed 
battlefield conditions. The report specifically argued for 
duration of soldiers in battlefield condition. We have taken a 
look at that data and we don't believe it will affect our 
operations at all.
    Mr. de Courcy. Also, Congressman, Tom Johnson from the 
Oregon Health Department might be able to respond to that from 
the State of Oregon.
    Mr. Walden. Would you please be sworn.
    [Witness sworn.]
    Mr. Walden. And your name and title for the record.
    Mr. Johnson. I am Tom Johnson, assistant administrator for 
the Oregon Health Division, and this is an interesting 
question, the toxicity.
    There is a recent study out that draws into question the 
prevailing data that we have been working on with regard to the 
toxicity of the agent. We have at present our toxicologist 
working on that. We have a study group coming together to bring 
together the best information available within the country.
    FEMA is participating in that, as well as information that 
really the Army is providing. They are very cooperative in 
that. We appreciate that.
    The answer at this point is we do not know. However, if we 
get the information that the best information--minds available 
in the country, that indicates that there does need to be a 
reassessment of the impact, the area, the population that would 
be then affected by a greater toxicity, we will take that into 
account.
    Here in this area, if the local community is aware of that, 
and particularly the emergency managers, because what needs to 
be factored into is the risks associated with the evacuation of 
people within the impact of the greater toxicity. And there 
needs to be a balance between the risks associated with 
evacuation, with the risks associated with staying there.
    We're aware of this issue. We're working on it with the 
Army. And if the numbers indicate that we do need to re-
evaluate our numbers for our response capability, we will do 
that.
    Mr. Walden. Thank you. We're quickly approaching the 
timeline, Mr. Chairman. I don't know if you had--this is a 
question from the audience.
    In the October 10, 1998 East Oregonian they stated in an 
article, ``Deadly gases have come close to escaping smoke 
stacks during the incineration process.'' The document showed 
that Tooele was shut down 72 times in a 19 month period between 
August 1996 to March 1998. Mostly due to stack alarms in which 
the Army admits or won't tell if they have no idea of chemical 
agent was released in the atmosphere or not. Tim Thomas 
reported that on March 30, 1998 stack monitors recorded levels 
more than 500 times the allowable concentration.
    How can you continue to maintain the incineration is safe?
    Mr. Prociv. I will have to ask Mr. Bacon to address that, 
too.
    Mr. Walden. Mr. Bacon.
    Mr. Bacon. Thank you, sir. We are confident that we haven't 
had any agent released to the environment. We do check every 
alarm that does occur within the plant. We trace those very 
seriously because we are concerned of protecting public health 
and the environment.
    We always err on the side of safety and there are times 
that we do cease operations until we determine the validity of 
the various alarms that cover both the work areas for worker 
health as well as the various stack alarms, and there are many 
layers of safety in that process where we are sure that we do 
not release agent to the environment.
    Mr. Walden. So you're saying no agent has been released 
through these stacks?
    Mr. Bacon. I am saying that, sir.
    Mr. Horn. Let me ask the gentleman from the Department of 
Health, if I might, does Oregon's Department of Health maintain 
statistics on the degree of cancer in various counties and when 
you do a survey such as this one on the impact, have they ever 
looked at the impact of those that might be working at the 
facility over a 10, 20 year period, and that they have certain 
diseases, I'll say, for want of a better word, cancer in 
particular, out of proportion to the surrounding people, and 
have they ever done that type of statistical analysis?
    Mr. Johnson. Again, Tom Johnson, Oregon Health Division. We 
do maintain records and data on the occurrence of cancers. At 
this point there is nothing that stands out for either Umatilla 
or Morrow County. We have not done a detailed study with regard 
to the workers on the facility. Those many times are transient 
and military people which we don't keep track of.
    Our concern is not so much, again, with the past history, 
but it's what might happen in the future. Generally, our 
attitude about that is that while those studies may be very 
useful in terms of providing baseline, our much larger concern 
is the risk that the population may be exposed to from the 
result of an incident, an accident. Our overall priorities are 
that we would much rather see the resources put into preparing 
the community to respond in the event of an incident, an 
accident, than looking at perhaps some studies that may track 
the human health burden of organophosphates.
    We think that the probability of a problem from release 
during the incineration process is much less than the 
probability of a risk that would be associated with an 
incident.
    Mr. Horn. Yeah. I often have felt that Departments of 
Health ought to take advantage of, say, the Master of Public 
Health degree holders or M.S. In health education and just put 
them to work on some of these analyses that often departments 
don't have either the resources or whatever to go into depth. 
But it just seems to me this would be a very interesting study.
    Mr. Johnson. That certainly would be the case, and we would 
love to do that. Many of our epidemiologists would think that 
this would be a Jim Dandy study. Simply as was indicated 
earlier, we do not have the funds to do that, and our larger 
concern is preparedness in the event of an incident.
    Mr. Horn. That's all I have.
    Mr. Chairman, if I might, I want to read into the record 
the staff that were involved in this hearing, which is our 
usual tradition.
    J. Russell George, the staff director and chief counsel, 
sitting over there, second from the end. Randy Kaplan on my 
left, your right, is the counsel for this particular hearing. 
Bonnie Heald, director of communications, was with us for a 
number of these hearings, but is not at this one. Grant Newman, 
our faithful clerk, is here. Jeff Eager, the legislative 
assistant to Representative Walden, is here, and this is him at 
the table. Martha Cagle, legislative assistant to Senator 
Gordon Smith, who is with us. Don't be shy. Stand up. 
Politicians always stand up. And we're glad to have your help 
and the Senator does a fine job. Trey Henderson, professional 
staff for the minority. Is Trey here? Well, welcome to Oregon. 
Oregon National Guard, we appreciate for helping set up for the 
hearing, the use of the facility. It's just been excellent 
support. And Rick Tunstead, the Army operations technician. And 
we vote to raise your pay I think almost every year, so we just 
wanted him to know, Rick, let us out of here when we're done. 
We're for you. And Lieutenant Colonel Sonny Newson. And then 
our faithful court reporter, William Bridges, is with us. And 
the Armory personnel, of course, has been immensely helpful, 
Colonel Caldwell, Lieutenant Colonel Lyman, Lieutenant Colonel 
Stewart, and then I mentioned Sonny Newson and Rick Tumstead, 
if you would stand up, we would like to thank you for your 
hospitality. And with that, I thank you, Mr. Chairman.
    Mr. Walden. Mr. Chairman, thank you for conducting this 
hearing here in Hermiston. I would also recognize I know we had 
a representative of the Governor's staff here, right here, and 
then as you already know, Senator Smith's staff, and Senator 
Wyden's staff I believe is represented as well. Pete, are you 
here? There is Pete right there.
    And so we appreciate all of your involvement as we work 
together to try to resolve some of these local issues, Mr. 
Chairman, which we have highlighted now for this committee and 
for the Congress, and hopefully have got some answers.
    Mr. Horn. We are going to recess this to the Seattle 
hearing.
    Mr. Walden. We are going to recess this to the Seattle 
hearing, I am being told. But the record would remain open for 
additional comments if members of the public want to submit for 
the record.
    Mr. Horn. Two weeks at least, if you could get it to us.
    Mr. Walden. For 2 weeks. So if you have information that 
you want the committee to consider, the record will remain open 
for the next 2 weeks. And meanwhile the subcommittee will be 
recessed, under the call of the Chair in Seattle, I understand.
    Mr. Horn. Right.
    Mr. Walden. Thank you everyone for coming out.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
